<html>
<title> - WORLDWIDE THREATS</title>
<body><pre>[Senate Hearing 115-449]
[From the U.S. Government Publishing Office]




                                                     S. Hrg. 115-449
 
                           WORLDWIDE THREATS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
         


       Available via the World Wide Web: http://www.govinfo.gov/
       
       
       
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 34-390 PDF           WASHINGTON : 2019      
       
       
       


                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman          JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma               BILL NELSON, Florida
ROGER F. WICKER, Mississippi            CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                   JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                    KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota               RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                        JOE DONNELLY, Indiana
THOM TILLIS, North Carolina             MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                    TIM KAINE, Virginia
DAVID PERDUE, Georgia                   ANGUS S. KING, JR., Maine
TED CRUZ, Texas                         MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina          ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                     GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                                     
                                    
                                     
                                     
                     Christian D. Brose, Staff Director
                     Elizabeth L. King, Minority Staff 
                               Director

                                  (ii)

  


                         C O N T E N T S


                             March 6, 2018

                                                                   Page

Worldwide Threats................................................     1

Coats, Honorable Daniel R., Director of National Intelligence....     4
Ashley, Lieutenant General Robert P., Jr., USA, Director, Defense    35
  Intelligence Agency.

Questions for the Record.........................................   111

                                 (iii)


                           WORLDWIDE THREATS

                              ----------                              


                         TUESDAY, MARCH 6, 2018

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SH-216, Hart Senate Office Building, Senator James M. Inhofe, 
presiding.
    Committee members present: Senators Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Cruz, Graham, 
Sasse, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. The committee will meet to hear testimony 
of the--on Worldwide Threats.
    We're pleased to welcome our distinguished witnesses: Dan 
Coats--we all know Dan very well--and, of course, General 
Ashley. It's nice to have you here.
    It's particularly timely that we are here with our Nation's 
top intelligence officials in the context of the 
administration's newly released National Defense Strategy. I 
just returned from a CODEL [Congressional Delegation], with 
Senators Rounds, Ernst, Sullivan, and a member of the House 
Armed Services Committee, where we visited the Philippines, 
Taiwan, Korea, Japan, with the new threat that we're faced with 
in the South China Sea. Senior military and civilian defense 
leaders have long warned that our competitive advantage is 
eroding. We remember General Dunford said--just the other day, 
he said that we are losing our qualitative and quantitative 
edge that we've enjoyed for such a long period of time.
    Rising powers, like Russia and China, have been investing 
in military modernization and developing capabilities 
specifically targeted to contest America's overmatched 
capabilities. In fact, China is increasing its spending in 
fiscal [year] 2018 by 8.1 percent over the last year, the third 
straight year in a row that they've had massive increases in 
their military spending. It's important to point out that 
Russia has made some advances in weapon systems, in clear 
violation of the INF [Intermediate-Range Nuclear Forces Treaty] 
Treaty, which Putin touted during his presentation of the 
Russian State of the Union, just last week. The INF Treaty 
doesn't apply to China.
    While our response here at home during the last 
administration was to provide our military with inadequate 
funding, budget uncertainty, and readiness crises, now, in a 
new era of great power competition of Russia and China--China, 
which we witnessed during our CODEL last week, and what they're 
doing in reclaiming land and--to be used for the wrong 
purposes--it's a pretty scary thing.
    Director Coats, you summed up the gravity of the current 
threat environment when you wrote, in your prepared statement, 
``The risk of interstate conflict, including among the world's 
great powers, is higher than at any time since the end of the 
Cold War.''
    So, on that happy note, I thank you very much, both, for 
being here.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    And I'd like to welcome back our former colleague, Director 
Dan Coats, and also General Ashley. Thank you, sir. You're 
making your first appearance before the committee. Welcome.
    The new National Defense Strategy states that the central 
challenge facing the Nation is the reemergence of long-term 
strategic competition with Russia and China, and that this 
competition replaces terrorism as the primary concern in U.S. 
national security. Without question, both Russia and China pose 
a serious threat to our national security. In order to counter 
these threats, we must better understand their objectives and 
the means through which they will seek to achieve them. In 
doing so, we must consider the full spectrum of capabilities of 
our potential adversaries, from high-end platforms to low-end, 
hybrid, or irregular approaches.
    The Kremlin is aggressively pursuing strategic competition 
across the full range of capabilities, from nuclear and 
conventional military modernization to asymmetric operations 
below the level of military conflict, intended to undermine the 
foundations of our democracy and inflame social divisions. We 
need a clear-eyed understanding of President Putin's intentions 
asserting Russia's claim to great power status and using every 
tool at his disposal to destabilize the rules-based 
international order that has promoted strategic stability for 
decades.
    Most pressing is that the intelligence community fully 
agrees that Russia is already launching an assault on the U.S. 
midterm elections later this year, yet we have repeatedly heard 
from administrative officials that the White House has not 
directed the intelligence agencies or the relevant DOD 
[Department of Defense] components to disrupt or blunt Russian 
cyber and other attacks against the fundamental institutions of 
our society.
    In the case of China, we need a whole-of-government 
approach that counters the economic, diplomatic, and military 
competition we face. In other words, a military response alone 
will not be successful. China is a large entrepreneurial 
country with a long-term vision. We must also endeavor to 
ensure that China adheres to the rules-based order from which 
it has benefited so greatly.
    I am deeply concerned about the continued militarization of 
the territorial features of the South China Sea, its illicit 
theft of U.S. technology and intellectual property, and its 
coercive activities against its neighbors, including the 
economic retaliation against South Korea for accepting the 
THAAD [Terminal High Altitude Area Defense] deployment 
necessary to defend itself from North Korea. China should work 
with its neighbors, instead of destabilizing the regions 
through its actions, to resolve its disputes peacefully and 
through the legal mechanisms that exist.
    Great power competition may be the current geostrategic 
reality, but we must not neglect other equally complicated 
challenges. I believe it would be harmful to our national 
security if we exclusively focused on great power competition 
at the expense of the ongoing threats posed by rogue regimes, 
terrorist organizations, and other nonstate actors and criminal 
organizations.
    For example, we face a clear and present threat from North 
Korea that must be contained and deterred. A preemptive war 
with North Korea would be a catastrophic event for the people 
of South Korea and the region. Instead, we must come up with a 
robust deterrence strategy that lay a strong missile defense 
with strict sanctions and sustained diplomatic effort. We must 
also pursue a robust counterproliferation effort. Our strategy 
must be multilaterally and globally coordinated. We can contain 
the threat that North Korea poses without going to war if we 
engage in a consistent strategy and adequately resource our 
government agencies, especially the State Department, in the 
coming years.
    According to all reports, Iran is complying with its 
obligations under the Joint Comprehensive Plan of Action. 
However, Iran continues to play a destabilizing role in the 
Middle East through its development of ballistic missiles and 
support of proxy groups, particularly in Syria and Yemen.
    While the so-called physical caliphate previously enjoyed 
by ISIS [Islamic State of Iraq and Syria] has been dismantled, 
the group has not been defeated. ISIS-directed and inspired 
attacks will remain a persistent threat for some time to come.
    Likewise, al Qaeda has proven resilient and continues to 
seek new sanctuaries from which it can launch spectacular 
attacks against the West.
    In Afghanistan, the coalition continues to confront a 
variety of threats, from the Taliban-led insurgency as well as 
the variety of militant groups that call South Asia home, many 
of which have proven resilient in the face of significant 
military pressure. The National Defense Strategy calls for more 
resource-sustainable approach to efforts in Afghanistan. 
However, the administration is set to increase the number of 
troops in country, which follows on the heels of last year's 
increase. At the same time, we hear reports that countries like 
Russia may be seeking to expand efforts to engage with our 
adversaries in the Taliban, possibly to play a spoiler to our 
efforts.
    It is clear that we are living in complex times. I look 
forward to your testimony on these issues and thank you for 
your service.
    Senator Inhofe. Thank you, Senator Reed.
    Since a quorum is now present, I ask the committee to 
consider Lieutenant General Paul Nakasone, who appeared before 
this Committee this last week, to be General and Director, 
National Security Agency; and Chief, Central Security Service; 
Commander, U.S. State--United States Cyber Command; and Dr. 
Brett Park, to be Deputy Administrator for the Defense Nuclear 
Nonproliferation, National Nuclear Security Administration.
    Is there a motion?
    Senator Reed. I so move.
    Senator Inhofe. Second?
    Senator Fischer. Second.
    Senator Inhofe. All in favor, say aye.
    [A chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No response.]
    Senator Inhofe. The ayes have it.
    [The list of nominees follows:]

 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on March 6, 2018.
     1.  LTG Paul M. Nakasone, USA to be general and Director, National 
Security Agency/Chief, Central Security Service/Commander, US Cyber 
Command (Reference No. 1594).
_______________________________________________________________________
                                                                      
TOTAL: 1

    Director Coats, we appreciate your being here, back with 
your--all of your friends. We would like to hear from both of 
you. And if you can confine your statements to around five 
minutes, that would be helpful. We have a lot of questions. We 
have a well-attended meeting here.
    Senator Coats--or Director Coats.

 STATEMENT OF HONORABLE DANIEL R. COATS, DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Director Coats. Well, Mr. Chairman, thank you--and Ranking 
Member Reed--thank you and members of the committee. It's an 
honor for me to be here today alongside General Ashley to 
represent the men and women of the intelligence community whose 
hard work is reflected in the testimony that we are about to 
provide.
    As you will hear during my remarks, we currently face the 
most complex, volatile, and challenging threat environment in 
modern times. The risk of interstate conflict is higher than 
any time since the end of the Cold War, and we have entered a 
period that can best be described as a race for technological 
superiority against our adversaries, who seek to sow division 
in the United States and weaken U.S. leadership. Thus, it is 
evermore important that we remain vigilant to the range of 
threats worldwide as we seek to do all we can to provide 
security to the American people.
    I'll provide a brief overview of some of the top threats, 
starting with the functional topics and then moving to regional 
threats. Much of what has been said by the Chairman and the 
Ranking Member has--will be reaffirmed and reflected in what I 
say, and so I'll try to keep this as brief as possible.
    Let me begin, however, with the cyberthreat, which is one 
of my greatest concerns and top priorities of our office. From 
U.S. businesses to the Federal Government to State and local 
governments, we are under cyberattack. While state actors pose 
the greatest cyberthreats, the democratization of cyber 
capabilities worldwide has enabled and emboldened a broader 
range of actors to pursue their malign activities against us. 
We assess that Russia is likely to continue to pursue even more 
aggressive cyberattacks, with the intent of degrading our 
democratic values and weakening our alliances. Persistent and 
disruptive cyber and influence operations will continue against 
the United States and European countries and other allies, 
urging elections--using elections--excuse me--as opportunities 
to undermine democracy and sow discord and undermine our 
values. In addition to Russian actors, we will see Chinese, 
Iranian, and North Korean cyberactors continue to build off 
past successes to improve the scope and scale of their cyber 
capabilities.
    Quickly, let me talk about weapons of mass destruction. 
Overall, the state efforts to modernize, develop, or acquire 
WMD [weapons of mass destruction], their delivery systems, or 
the underlying technologies constitute a major threat to the 
United States and our allies. North Korea will be the most 
volatile and confrontational WMD threat this year, and Russia 
will remain the most capable WMD power, and is currently 
expanding its nuclear-weapons capabilities.
    State and nonstate actors, including the Syrian regime and 
ISIS, possess and, in some cases, have used chemical weapons in 
Syria and Iraq, and we continue to be concerned about other 
actors' pursuit of biological weapons.
    My third topic is the ongoing terrorist threat, which spans 
the sectarian gamut from ISIS and al Qaeda to Lebanese 
Hezbollah to state-sponsored activities of Iran and other 
affiliated and nonaffiliated terrorist organizations. United 
States-based homegrown violent extremists remain the primary 
and the most difficult-to-detect Sunni terrorist threat in the 
United States.
    ISIS remains a threat to United States interests in Iraq 
and Syria, despite territorial losses, and will likely focus on 
rebuilding in the region, enhancing its global presence, and 
planning and inspiring attacks worldwide.
    Al Qaeda will remain a major actor in global terrorism as 
it continues to prioritize a long-term strategy and remains 
intent on attacking the United States and U.S. interests 
abroad.
    And Lebanese Hezbollah, with the support of Iran, will 
continue to foment regional instability through its involvement 
in Syria and direction to other Shiite's militant groups.
    Let me briefly transition. I know probably we will be 
talking about commercial space, and we need to look to the 
heavens as well as the Earth, in terms of threats to the United 
States. We can discuss that in more detail in the question 
period. Let me just note that Russia and China have been 
expanding their space-based reconnaissance, communications, and 
navigation systems, and both countries seek to mature their 
counterspace weapons as a means to reduce U.S. and allied 
military effectiveness and perceptions of U.S. military 
advantage in space.
    Mr. Chairman and Ranking Member, both of you touched on the 
various regional issues. We saw the news this morning relative 
to North Korea. Hope springs eternal, but we need to learn a 
lot more, relative to these talks. We will. The IC [intlligence 
community] will continue to do every possible collection and 
assessment we can, relative to the situation that exists in 
North Korea. I know we'll be talking about that issue.
    I want to note, China will increasingly seek to expand its 
regional influence and shape events and outcomes globally. It 
will take a firm stance on its regional claims, and intends to 
use its One Belt, One Road Initiative to increase its reach to 
geostrategic locations across Eurasia, Africa, and the Pacific.
    In looking at South Asia and Afghanistan, we assess the 
overall security picture will modestly deteriorate in the 
coming year, and Kabul will continue to bear the brunt of 
Taliban-led insurgency. Afghan National Security Forces face 
unsteady performance, but, with coalition support, probably 
will maintain control of most major population centers. 
Complicating the Afghan situation is our assessment that 
Pakistan-based militant groups continue to take advantage of 
their safe haven to conduct attacks, including against United 
States interests.
    Moving now to Russia, we assess President Putin will 
continue to apply assertive foreign policies to shape outcomes 
beyond Russia's borders while constraining his domestic 
opposition in the runup to next month's presidential elections. 
We also assess that Putin will resort to more authoritarian 
tactics to remain in control amid challenges to his rule.
    With respect to Russian influence efforts, Russia perceives 
its past efforts as successful, and views the 2018 United 
States midterm elections as a potential target. We continue to 
see Russian activities designed to exacerbate social and 
political fissures in the United States. In the next year, we 
assess Russia will continue to use propaganda, social media, 
false-flag personas, sympathetic spokesmen, and other means of 
influence to try to build on its wide range of disruptive 
operations. We expect Russian influence efforts to continue in 
other locations, as well. For example, we assess Russian 
aggression in the Ukraine will persist, even as we seek to 
bolster Ukraine's ability to defend its territorial integrity.
    Let me turn now to the final regional plan that I've--that 
I plan to talk about today, the Middle East and North Africa. 
This region will be characterized by political turmoil, 
economic fragility, and civil and proxy wars in the coming 
year. Iran will remain the most prominent state sponsor of 
terrorism and an adversary in the Middle East. Its provocative 
and assertive behavior increases the potential for escalatory 
actions, especially in Iraq, Syria, and Yemen, that threatens 
United States forces and allies in the region.
    Turkey is seeking to thwart Kurdish ambitions in the Middle 
East, and the ongoing Turkish incursion into northern Syria is 
complicating counter-ISIS activities in the region and 
increases the risk of United States forces located in the area. 
Syria will face continued unrest in fighting throughout 2018, 
with spikes in violence occurring as Damascus attempts to 
recapture urban areas, as we are now witnessing.
    I will pass over, in the interest of time, our assessments 
on Iraq, the situation in Yemen, and some other conflicts. Let 
me note that the conflicts at--around the world today have 
displaced more people since World War II, and these present 
major social and humanitarian challenges.
    Finally, just let me add one additional thought to our 
Nation that I would like to present. It is deeply concerning 
that our increasingly fractious political process, particularly 
with respect to Federal spending, is threatening our ability to 
properly defend our Nation. The failure to address our long-
term fiscal situation has increased the national debt to, as 
you know, over $20 trillion and growing. Our continued plunge 
into debt is unsustainable and represents a dire future threat 
to our economy and to our national security. From a national 
security perspective, it was then former Chairman Joint Chiefs 
Mike Mullen who first identified the national debt as the 
greatest threat to our national security. Since then, he has 
been joined by numerous respected national security leaders of 
both parties, including our current Defense Secretary, Jim 
Mattis. I believe it's vitally important for all of us to 
recognize the need to address this challenge and to take action 
as soon as possible before a fiscal crisis occurs that truly 
undermines our ability to ensure our national security.
    With that, I will turn this over to General Ashley, and 
then we will be ready--for his remarks--and we'll be ready to 
take your questions.
    Thank you.
    [The prepared statement of Mr. Coats follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
      
    Senator Inhofe. Thank you, Director Coats.
    General Ashley.

  STATEMENT OF LIEUTENANT GENERAL ROBERT P. ASHLEY, JR., USA, 
             DIRECTOR, DEFENSE INTELLIGENCE AGENCY

    Lieutenant General Ashley. Chairman Inhofe, Ranking Member 
Reed, and members of the committee, thank you for the 
opportunity to provide the Defense Intelligence Agency's 
assessment of a global security environment and address the 
threats confronting the Nation.
    My statement for the record details a range of challenges, 
competitors, threats, foreign military capabilities, and 
transnational terrorist networks. In my opening remarks, I'd 
like to just briefly address a few of these areas.
    North Korea. North Korea is a critical threat to the United 
States and our allies in Northeast Asia. North Korea leader Kim 
Jong-un has pressed his nation down a path to develop nuclear 
weapons and deliver them with ballistic missiles that can reach 
South Korea, Japan, Guam, and the United States. He has 
instituted a rapid missile development and flight testing 
program that has, over the last two years, brought North Korea 
closer to its goals. Moreover, North Korea conducted its sixth 
nuclear test, in September of last year, which generated a much 
larger seismic signature than previous tests. Concurrently, 
Pyongyang has invested in conventional systems and training 
designed to increase the threat to South Korea. North Korea's 
nuclear and missile testing has deepened the regime's 
isolation. While the United Nations has imposed additional 
sanctions on North Korea, Kim shows no interest in walking away 
from his nuclear or ballistic missile programs. Additional 
missile launches are near certainty, and further nuclear tests 
are possible as Pyongyang seeks to refine its weapons design 
and its reliability.
    China. In 2017, China armed forces continued implementing 
sweeping organizational reforms to enhance the ability of the 
People's Liberation Army to conduct joint operations, fight 
short-duration, high-intensity regional conflicts at greater 
distances from the Chinese mainland. China's military 
modernization plan includes the development of capabilities for 
long-range attacks against adversary forces that might deploy 
or operate in the western Pacific Ocean. China is leveraging 
its growing power to assert sovereignty claims over features in 
the east, the South China Seas, and the China-India border 
region. Beijing's military modernization program is expanding 
in concert with an intent to invest in a range of missions 
beyond China's periphery. China's increasingly lethal joint 
force will be capable of holding United States and allied 
forces at risk at greater distances from the Chinese mainland.
    Russia. Russia views the United States as the primary 
threat to its national security and its geopolitical ambitions. 
The Kremlin seeks to establish a sphere of influence over 
former Soviet Union states, prevent further eastward expansion 
of NATO [North Atlantic Treaty Organization], and ensure that 
no major international issues are addressed without Russia's 
input or at its expense. The Kremlin views the powerful 
survivable strategic nuclear force as a foundation of Russia's 
national security, and sees modernized general-purpose and 
nonstrategic nuclear forces as critical to meeting its 
conventional military threats. Russia's aggressive actions 
abroad over the last several years, its military interventions 
in Syria and Ukraine, have boosted Russia's confidence in its 
military and increased Moscow's geopolitical profile.
    Afghanistan. In South Asia during the past year, Afghan 
National Defense and Security Forces, ANDSF, protected major 
population centers and denied the Taliban strategic gains while 
combating ISIS in the Khorasan Province, as well as al Qaeda. 
The ANDSF will build on its incremental success by continuing 
to develop offensive capabilities while the Taliban will 
threaten Afghan stability, undermine public confidence by 
conducting intermittent high-profile attacks in urban areas, 
increasing influence in rural terrain, threatening district 
centers, and challenging vulnerable ANDSF locations.
    Iran. Iran remains the primary nation-state challenger to 
United States interests and security within the Middle East. 
Iran continues to improve its conventional capabilities to 
deter adversaries and defend its homeland. Iran has regions--
has the region's largest ballistic military arsenal that can 
strike targets throughout the region, up to 2,000 kilometers 
from their borders. Following Iran's implementation of the 
Joint Comprehensive Plan of Action in January of 2016, the 
International Atomic Energy Agency continues to report that 
Iran has not enriched uranium beyond allowable levels, and 
maintains limits on centrifuge numbers, and allows monitoring 
of nuclear fuel and heavy water stocks. Iran remains committed 
to modernizing its military, building the capability of its 
partners in the region, while balancing a desire to gain from 
its integration into the global economic system.
    Cyber. Our top competitors are developing and using 
cyberspace to increase their operational reach into our 
military and civilian systems, exploiting our vulnerabilities 
and challenging the adequacy of our defense.
    Terrorism. ISIS suffered significant setbacks in 2017. 
Territorial losses in Iraq and Syria and persistent 
counterterrorism operations against ISIS global network have 
impeded its ability to exploit instability in the region where 
it operates. ISIS members are dispersing and prioritizing 
clandestine networks to preserve their core capabilities. While 
ISIS capabilities have been degraded in numerous countries, it 
remains a significant threat and continues to inspire more 
attacks throughout the West than any other terrorist 
organization. Al Qaeda also remains a serious and persistent 
threat to United States interests worldwide.
    Finally, advanced technological threats. Our competitors 
are working to develop more advanced technologies, which pose 
an increasing challenge to our warfighters, our decisionmakers, 
and the intelligence community. Developments in hypersonics 
will provide the ability to strike targets more quickly and at 
a greater distance. The development of quantum technologies, 
supercomputers, artificial intelligence is enabling new 
military capabilities, and competitors are prioritizing 
research in quantum-enabled communications and quantum 
computing, which could supply the means to field highly secure 
communications systems and eventually break encryption 
algorithms.
    With this brief overview, Mr. Chairman, I look forward to 
the committee's questions.
    [The prepared statement of Lieutenant General Ashley 
follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
          
    Senator Inhofe. Thank you very much, the excellent opening 
statements. Scary, but excellent.
    I mentioned that Senator Rounds, Ernst, and Sullivan and I 
spent time in the South China Sea. It was disturbing to see--to 
witness what's going on there, because, frankly, we didn't know 
the magnitude and what kind of effect it had on our allies 
there--the Philippines, the--Taiwan, South Korea. It's having a 
very--it's intimidating our allies to see--and the word 
``reclamation'' is not very accurate, because they're not 
reclaiming land. This is land that never was there, so they're 
creating land, and without any legal authority to do so. It's 
obvious that it's--would be done to use for military purposes, 
because that's what they have on these islands, not just a--
10,000-foot runways, but cannons and missiles and the rest. So, 
this is very dangerous that--as we look at it and see the 
effect it's having on our allies there. But, China is producing 
at least--in addition to their increased spending, at least a 
dozen warships a year, developing new long-range weapon systems 
and fifth-generation fighters and--after three years of 
significant increases in defense spending.
    This is what's going on right now. It's a major thing that 
is having an effect of challenging us in the United States as 
the body that would--for leading the free world.
    Director Coats, let's start with you, on your view. What do 
you think they're doing out there, specifically in that part of 
the China Sea, building that aggressive of a fortress out 
there? What do you think the reasoning is?
    Director Coats. I think it's been very clear, over the past 
few years, that China is willing to take pretty extraordinary 
means, in terms of expanding its influence, not over--not only 
over the region, as you suggested, in South China Sea, but 
throughout the globe. The One Belt, One Road program for China, 
I have learned--I don't want to clarify the actual number, but 
a report was recently--released recently on--unclassified 
version--that China will spend about $8 trillion in 68 
different nations, establishing its geostrategic positioning 
that not only is economically--for economic purposes and trade 
purposes, but also for use of military facilities. South China 
Sea is one of the areas that they early started on, and really 
almost like--we weren't all--paying all that much attention to 
it; all of a sudden, they had islands with, as you said, 
10,000-foot runways, not just for bringing tourists over to 
enjoy the beaches, but also to establish military presence.
    They definitely are expanding their regional influence as 
well as their global influence. They're spending an 
extraordinary amount of money on that as well as on upgrading 
their military, as Admiral Ashley--General Ashley--excuse me, 
General--noted in his remarks.
    Senator Inhofe. Yeah.
    Director Coats. And it's become a world power. And that is 
their goal. And they're using----
    Senator Inhofe. And if their goal----
    Director Coats.--methods through----
    Senator Inhofe. Do you think part of their goal is a goal 
of intimidation? Because that's what's happening right now with 
our allies there. They are--there's a fear that they have. 
Maybe they're looking at us and looking at China, wondering 
which one to side up with. What do you think?
    Director Coats. Yeah. Well, I've traveled to Asia, and I've 
talked with countries that are allies of the United States, 
and----
    Senator Inhofe. Yeah.
    Director Coats.--want to be allies of the United States, 
but they fear the influence of China. They use a lot of loans, 
provide a lot of credit----
    Senator Inhofe. Yeah.
    Director Coats.--to these nations that is very attractive, 
nations that don't have those resources to build roads, to 
build facilities. But, it is for a design purpose. I think----
    Senator Inhofe. Yeah.
    Director Coats.--that is a threat to the future of 
America's influence around the world.
    Senator Inhofe. Yeah. I agree.
    General Ashley, the statement that was made--I used that in 
my opening statement--by our President, back when Kim Jong-un 
made the threatening statements about what he was going to do 
with his nuclear button, and people were critical of our 
President, but he was saying something that came from the heart 
and was a reality, in terms of the power that he has as 
President of the United States. And it worked. I mean, it was a 
matter of hours after that that they contacted South Korea and 
said, ``We're going to join you in the Winter Olympics.'' Well, 
we were over there, and we watched the effect that it had on 
people. I agree, when you said ``hope springs eternal,'' 
there's no reason to believe that Kim Jong-un is going to be a 
changed person. But, I think the news last night, that he's 
actually made a response to the message that was sent, in that 
he's ready to negotiate, he's ready to stop his nuclear 
activity and testing, do you share my somewhat optimistic view 
of what happened, General?
    Lieutenant General Ashley. Senator, right now I don't share 
your optimism. That's kind of a ``show me.'' We'll see how this 
plays out. There could be a number of----
    Senator Inhofe. Okay. We'll write that down, and we'll see 
who's right and who's wrong.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you both, gentlemen, for your service, your 
testimony.
    Director Coats, I've always appreciated your candor, your 
intellectual honesty as a colleague and a friend. Today, you 
started off by citing cyber as one of your major concerns, 
particularly Russian encroachment on our elections. We have 
asked other members of the intelligence community what's being 
done, and haven't heard much about what's being done. It really 
begs the question, What are we doing? So, let me just--has--to 
your knowledge, are you aware of a formal meeting of the NSC 
[National Security Council] in which this issue was not only 
discussed, but formal recommendations to counter this malign 
activity were presented to the President for decisions? Are you 
aware of anything like that?
    Director Coats. Senator, there are ongoing discussions 
among a number of our agencies--Department of Homeland 
Security, Department of Defense, the State Department, and 
others--relative to the cyberthreat. Our office recently met 
with three of the most--current agencies dealing with this, NSA 
[National Security Council] and others, to talk about the 
effect of cyber on the upcoming elections, but as well as the 
impact of that. It's a whole-of-government approach. I have 
discussed it personally with the President of the United 
States. He has said, ``I assume you're doing your job, all of 
you who head up these agencies, relative to cyber, but if you 
need for me to say--direct you to do it, do it.'' That's since 
we had our discussions on the threat assessment with the SSCI 
[Senate Select Committee on Intelligence].
    Senator Reed. Yes, sir.
    Director Coats. It is a top concern. It--the White House is 
engaged, and has been. Tom Bossert's office, Rob Joyce, and 
others have been leading that effort there, but it is a current 
discussion underway, in terms of how we best address not only 
the defense, but how do we look at ways to respond to this to 
prevent us from being vulnerable to attacks.
    Senator Reed. Again, I'd just comment as the discussions, I 
think, are ongoing. It's just the plan of action and the 
direction to take action seems to be missing. And somewhere in 
that is ultimately the President. That's the nature of his 
office, the nature of our Constitution.
    Director Coats. I would agree with that, Senator, and--but, 
I think, working with the Congress also much of the time in my 
last term here in the Senate was working to try to identify 
legislative action regarding critical infrastructure and 
putting a cyber plan in place. And I think this is something 
whole-of-government, because I think it has to work with 
Congress to----
    Senator Reed. I concur.
    Director Coats.--decide what policies we would provide.
    Senator Reed. It has to be whole-of-government--Homeland 
Security, Department of Defense--but, you know, it starts at 
the top if we're going to get anything done.
    Let me just ask a--change subjects for a moment--is that--
I've had the opportunity to travel overseas over the last 
several months, visiting United States forces--South Korea, 
Djibouti, Somalia, and Jordan. One of the disconcerting 
discoveries is that we do not have an Ambassador in South 
Korea, we do not have an Ambassador in Jordan, we do not have 
an Ambassador in Somalia, and we have troops in contact in 
Somalia, we have critical equities in all these other 
countries. Does it disturb you that we don't have this--the 
State Department engaged like that across the globe, in terms 
of our national security and your intelligence operations?
    Director Coats. Well, as a former Ambassador, I like to see 
Ambassadors get nominated and confirmed. But, that really is a 
question for Secretary Tillerson and the State Department to 
address. There has been ongoing discussions on that, but I 
don't have any inside knowledge as to--in terms of the 
decisionmaking process.
    Senator Reed. Thank you.
    General Ashley, again, thank you for your service. You 
point out that the Chinese are investing a huge amount of money 
in quantum computing. If this technology is realized, it would 
be revolutionary--and I say that, you know, emphatically--in 
terms of encryption, in terms of identifying vessels 
underwater, et cetera. Do you think the United States is 
putting sufficient resources behind this effort? Again, whole-
of-government effort?
    Lieutenant General Ashley. Yeah, I can only speak to where 
the Chinese investments are going in that assessment. I can't 
speak to where we are, as a Nation, and where we're investing. 
I could elaborate on the Chinese aspects of that.
    Senator Reed. Are you making the depth, the scope of this 
investment clear to your colleagues that do have, you know, the 
responsibility to inform leaders about what we should be doing?
    Lieutenant General Ashley. Senator, we are.
    Senator Reed. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, first of all, let me thank you for your service 
today to our country.
    Director Coats, I'm just curious. You indicated that you 
have had direct conversations, and good conversations, with the 
White House regarding cybersecurity and so forth. I'm just 
curious, do you believe that this country today has an 
appropriate and clear policy with regard to cyberwarfare?
    Director Coats. No. I think that's a work in process, and 
needs to be in process. I do believe there is real concern that 
we take action, because we're seeing the results of our 
adversaries using cyber to degrade any number of things here in 
the United States. I think putting a plan together, as I said, 
needs to be a whole-of-government effort, because various 
agencies and various forms of, not only government, but private 
institutions, companies, business, financial, et cetera, are 
being threatened with this. It mounts a very significant threat 
to the United States.
    Senator Rounds. You made very clear the seriousness of the 
cyberthreat. For the last several years, the National Defense 
Authorization Act has very specifically directed that there 
should be a policy established. Have you seen progress made 
over the last several years with regard to the creation of that 
policy? Who is heading it up?
    Director Coats. Well, as I said, there's no--it is a whole-
of-government effort. There is White House involvement, as well 
as agencies' involvement. The--but, in specific answer to your 
question, I don't think that progress has been made quick 
enough to put us in a position where we have a firm policy, an 
understanding, not only ourselves, but what our adversaries 
know, relative to how we're going to deal with this. It's a 
dicey issue. We know the capabilities, and been on the losing 
end of some of those capabilities of other cyber actors. 
Starting a--the potential retaliation for actions that are 
taken from an offensive response have to be weighed in the 
context of all that. Our critical infrastructure, which--a 
number of efforts are underway to protect that infrastructure, 
but we still haven't, from a policy standpoint, either from the 
executive branch or the congressional branch, defined exactly 
what that is and how we're going to support those defenses. 
Then, the question of response, I think, is something that 
really needs to be discussed, because there are pros and cons 
about how we should do that.
    Now, I have personally been an advocate of playing offense 
as well as defense. I think we've done a pretty good job on 
defense, but we don't have an offensive plan in place that we 
have agreed on to be the policy of the United States.
    Senator Rounds. I've had the opportunity of serving as the 
Chair of the Cyber Subcommittee for this Committee, and along 
with Senator Nelson, who is my Ranking Member. We have, 
basically, come to the same conclusion that you have, that this 
is a critical and most certainly a primary source of threats to 
the United States now and in the future. We're also concerned 
that, while the whole-of-government is working on it, we do not 
have an appropriate policy in place today; and it should be, as 
you have suggested, a primary point to be reckoned with in the 
future.
    I would also agree with your assessment--I think the 
Science Board for the Department of Defense has made it very 
clear that, for the next ten years with regard to cyberattacks, 
our defensive capabilities will not match the offensive 
capabilities of our peer competitors, requiring that deterrence 
be enhanced on our part. I'm very pleased to hear that you feel 
the same way. I hope that message gets across, that that has 
got to be a part of our cyber policies now and in the future. 
Thank you for that.
    Let me ask just one other quick one, here. With regard to 
space, buried on page 13 of your items, it has to do with the 
threats in space and the threats to our capabilities to use 
space. Do you think there's a disconnect between what our 
policy is right now with regard to our capabilities in space 
and what our peer competitors are doing to limit our ability to 
see and to utilize the--what has now become acceptable 
technical capabilities--GPS [Global Positioning System] and so 
forth--that--are they in a position right now to basically shut 
down our use of space in a time of war or a near-war position?
    Director Coats. Our assessments have been that we hold a 
significant advantage in space, that it's--our assessment also 
says that there are other nations, particularly China and 
Russia, that are seeking to catch up with us. I would turn to 
General Ashley, relative to the military use and protections 
that we are providing for our satellites in trying to maintain 
that advantage that we now currently have.
    Lieutenant General Ashley. I would say that is integral to 
their strategies. When you look at the--kind of, the near 
peers, whether it's Russia or China, they understand the 
dependencies that we have on space. And so, they're developing 
capabilities for how to counter that, whether it's a directed 
energy weapon that's terrestrial, whether it is a co-orbital 
attack satellite, whether it's jamming from the ground. So, 
they're looking at strategies and how they develop, really, 
kind of a layered approach to deny us that capability, because 
they realize how integral it is, not only for us, and it'll be 
integral for them, as well.
    Senator Rounds. Last question. Better at it than we are?
    Lieutenant General Ashley. Sir, they're in the development 
stage at this point.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here. Director Coats, it's always 
nice to see you back in the Senate.
    I want to make sure that I understood what you said to 
Senator Reed. I understood you to say that the--when you raised 
the concerns about needing to respond to what Russia is doing 
to interfere with the potential elections coming up in 2018, 
that what you heard from the President was that you should do 
whatever you needed to, to thwart that. Did I understand that 
correctly?
    Director Coats. My response was in--in the question that 
was asked relative to the cyber issue, the direction to go 
forward on cyber, not a--that did not, in my--I did not 
understand it to be said in the context of the Russian 
influence on the elections.
    Senator Shaheen. So, you haven't heard anything, then, from 
the White House or the administration about directly responding 
to interference that--we've heard testimony from a number of 
intelligence officials, who have said that there is currently 
interference going on from Russia into our upcoming election 
cycle for 2018, and you haven't had any direction from the 
White House or the administration to respond to that. Is that 
correct?
    Director Coats. No, I wouldn't put it in that context. 
There obviously is concern about an ongoing--this ongoing 
effort of Russians to interfere with our elections. The White 
House is well aware of that, as we all are. Agencies have been 
tasked to address this. The meeting that I talked about also 
included our working with State and local officials--election 
officials relative to protections to put in. Of course, our job 
is to do the warnings. Our job is to do the--collect the 
information, do the----
    Senator Shaheen. Right.
    Director Coats.--assessment, and provide the warnings.
    Senator Shaheen. I don't want to interrupt, but that's a 
direct contradiction from what we heard from Admiral Rogers 
when he was before this Committee. He said that he had not 
heard from anyone in the administration or the White House 
about taking any action to respond to what Russia is doing to 
interfere in our elections. But, it still sounds to me like 
you're saying something different. So, let----
    Director Coats. Well, the NSA, which Admiral Rogers 
directs, is one component of many agencies that are involved. 
DHS [Department of Homeland Security] really has taken the lead 
on this. The White House----
    Senator Shaheen. So----
    Director Coats.--has been engaged on this. The Department 
of Defense, other agencies, have been engaged on this.
    Senator Shaheen. So, can you----
    Director Coats. But, in----
    Senator Shaheen.--tell this Committee what is being done to 
respond? Is that something you can tell us in this open hearing 
so that I can reassure my constituents that we are, in fact, 
trying to address this?
    Director Coats. Much of what is being done, or is being 
examined to be done, would fall in a classified area that I 
would be happy to address in a classified session. But----
    Senator Shaheen. Mr. Chairman, I would urge you and the 
Ranking Member to hold a classified briefing for this Committee 
so that we can hear firsthand what's being done to respond.
    Let me ask you, General Ashley--to change the subject a 
little bit--last week, before his State of the Nation--in his 
State of the Nation speech, Vladimir Putin bragged about 
weapons that Russia has developed that can avoid our missile 
defense system and that can strike anywhere in the United 
States, or, in fact, in the world, he said. Is that an accurate 
assessment of what we understand Russia to have developed?
    Lieutenant General Ashley. So, let me put the--kind of, his 
State of the Union in context. Obviously, an election year is 
coming up. And it was really for consumption of a domestic 
audience. But, I will say that we're aware of the systems that 
he spoke about. They are in a research-and-development phase. 
And any further discussion, I'd have to go to a classified 
session, and we could talk about this.
    Senator Shaheen. Well, again, I hope we will have the 
opportunity to hear about that in a classified session. As you 
know, that got a lot of attention in the United States, and a 
lot of concern.
    Can I also ask you both, When you talked about the threat 
from weapons of mass destruction, you talked about sarin gas in 
Syria, but there was no mention made of chlorine gas attacks in 
Syria, which we know are happening almost regularly now. Is 
that something that we also consider a weapon of mass 
destruction? How are we responding to that?
    Director Coats. We do consider that as a weapon of mass 
destruction. Probably more use of chlorine than sarin. We are 
currently assessing this recent attack. We do not have full 
information yet relative to the--each side is blaming the 
other. We don't have the assessments made yet, but we are very 
concerned about this, and I can--as you saw the President's 
response to the attack last year, this is something that is 
under serious discussion as we speak. Again, something that 
needs to be discussed in a classified session.
    Senator Shaheen. Well, again, I did--I do remember the 
President's response last year, and that's why I raise it, 
because, given the serious humanitarian conditions that are 
happening in Syria, for us to allow those weapons of mass 
destruction, those chemical attacks, to continue, I think goes 
against all humanitarian assessment of what we should be doing.
    Director Coats. I couldn't agree more.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Director Coats, General Ashley, very good to see you again. 
Thank you for your service.
    Director Coats, I'd like to start with you, please. In your 
opening statement, you note that U.S. allies and partners' 
uncertainty about the willingness and capability of the United 
States to maintain its international commitments may drive them 
to consider reorienting their policies, particularly regarding 
trade, away from Washington. And, as we await the President's 
decision on imposing tariffs on steel and aluminum, I believe 
that it is important that we consider any national security 
implications that this might have, those tariffs. The National 
Defense Strategy states that the U.S. needs to strengthen 
current alliances and foster new partnerships in order to 
combat threats around the globe. And, just from your 
perspective, Director, what message do you think this tariff 
would say to our allies and partners? And can you explain how 
our relationships with other countries can aid in our national 
security efforts?
    Director Coats. Well, the threat of--that we see--the 
threats that we see around the world obviously need to be 
looked at in the context of who's on our side and who are our 
adversaries, and how we can better maintain relations with our 
allies in order to address these. When General Mattis talked 
about, ``We're trying to address some of these situations 
through by, with, and through,'' it means working with allies.
    Obviously, trade is one of many, many threads of--that tie 
us together. There are pros and cons. The President's 
announcement recently has not been finalized, as you know, and 
was done so in the context of national security, the concern 
that certain types of materials, like steel and aluminum, are 
important for national security purposes, to have that capacity 
here, and not to be relied--relying on foreign entities, even 
some that we might call adversaries now, but might not be, 
later.
    Our job in the intelligence community is to assess things 
after they've happened and--or are about to happen--and try to 
provide information to our policymakers so that they can make 
determinations on the policy. So, I really am not in a position 
to discuss policy on trade, but the IC will provide everything 
we can to influence and to provide--not influence, excuse me--
to provide policymakers with what they need to make those 
decisions.
    Senator Ernst. Very good.
    Well, I often notice, anytime that any of us here are 
attending defense talks overseas, whether it's the Shangri-La 
dialogue or the Munich Security Conference, that not only do we 
talk about national defense, but we also seem to talk about 
trade, especially in the Pacific. You know, the Chairman just 
stated that we returned from an overseas trip just a couple of 
weeks ago. Oftentimes many of those partners really do 
emphasize the need to remain strong trade partners, because, 
where there is an absence of United States trade, often we see 
China stepping in to close those gaps. So, obviously, I'm a 
strong supporter of our trade relationships.
    Director Coats, and General Ashley as well, from that 
CODEL, the experiences that we took away, we had the 
opportunity to talk about some of the challenges we face on the 
Korean Peninsula. We have seen where North Korea has been able 
to garner support through illicit trade. And, just example, we 
know that North Korea has exported ballistic missile technology 
to countries like Iran and Syria. Can you talk about how the 
intelligence community can help in aiding and restricting that 
flow of illicit materials overseas? Just as briefly as you can.
    Director Coats. We take proliferation, and particularly 
weapons of mass destruction, very, very seriously, and try to 
track that to the very best of our abilities. We know the 
history of North Korea transfers for cash and for other 
reasons. It's particularly critical now, as we are dealing with 
a very serious situation with North Korea. We have seen 
workarounds, sanctions that have been imposed, by the North 
Koreans to achieve, essentially, revenue----
    Senator Ernst. And do we----
    Director Coats.--to support their military. It's something 
that we take very seriously. It's a very high priority for us.
    Senator Ernst. Okay.
    And, General Ashley, is that something, through the 
military community, we're able to work with partner nations to 
share information to stop that trade?
    Lieutenant General Ashley. I think what you want to do is 
make sure you sensitize all the nations that would be somewhere 
in that supply chain as to where the risk might lie and how 
they might interdict that. The challenge with some of the 
technologies is its dual-use, so some of the chips, they're not 
necessarily prohibited. When you actually start moving the 
stuff from a maritime standpoint, we've seen more aggressive 
behavior around the Peninsula, in terms of trying to catch 
trans-shipments and other actions like that. So, that kind of 
aggressive actions will, you know, serve our interests, in 
terms of being able to interdict that. But, really, sensitizing 
all the nations that are involved in those regions to the 
potential movement of commodities, anything that's tied into 
the development of a missile or all the components that you 
would use to build that would be something that we would share 
across all those nations and all those defense departments.
    Senator Ernst. Very good.
    Thank you, gentlemen, very much.
    Senator Inhofe. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    And thank you both for your long and distinguished service 
to our Nation.
    Director Coats, have you read the indictment against 13 
individuals, Russians, and three Russian entities that was 
recently returned by Special Counsel?
    Director Coats. I'm familiar with it, and I've read a 
summary of it. I haven't read all the details.
    Senator Blumenthal. Would you agree with me that Russia 
committed an act of war against the United States by 
interfering in our past election, as detailed graphically and 
dramatically by that indictment?
    Director Coats. If you describe it--well, it's--it--it's 
not a conventional war, it's a war of influence.
    Senator Blumenthal. It's an attack----
    Director Coats. If you----
    Senator Blumenthal.--on the United States that constituted 
an act of war. In fact, Russia itself described it as 
``informational warfare.''
    Director Coats. I think that's a--I think it's the 
obligation of the Congress to determine whether or not 
something is an act of war against the United States.
    Senator Blumenthal. Whatever you describe it--and I would 
call it an act of war--it is continuing, is it not?
    Director Coats. I--that's what I said in my opening 
message, yes.
    Senator Blumenthal. Yet, the President of the United States 
has never directed you to do to Russia what they are doing to 
us, correct?
    Director Coats. President directs me to do my job, and my 
job is to provide the intelligence which formulates policy.
    Senator Blumenthal. But, he's never given you orders to 
take any specific action either to deter or retaliate against 
Russia for its act of war on our country.
    Director Coats. There are some issues that would--we could 
discuss in classified session, but I can't do that here.
    Senator Blumenthal. Well, you're talking to the American 
people, now, who have been that Russia attacked our Nation. Can 
you assure the American people that the President told you to 
take effective deterrent action, in addition to what we're 
doing in the past?
    Director Coats. President told me to do my job. My job is 
to collect--to oversee the 17 intelligence agencies----
    Senator Blumenthal. But, he never----
    Director Coats.--that we have, and provide that----
    Senator Blumenthal.--instructed you not----
    Director Coats.--intelligence information to our--to the 
President----
    Senator Blumenthal. He never instructed you----
    Director Coats.--and to our policymakers.
    Senator Blumenthal. I apologize for interrupting. He never 
instructed you either to counter, deter, to retaliate, to take 
any action or to devise a plan against Russia.
    Director Coats. These are issues that I would like to 
discuss in a classified session relative to this and----
    Senator Blumenthal. Well, I think the American people 
deserve to know whether, in fact, the President directed his 
top intelligence officials to effectively counter this 
continuing act of war on our country.
    Let me shift questions, if I may. I'm sure you're aware of 
both public and private information that at least four 
countries discussed how to influence and manipulate certain 
officials of the administration--in particular, Jared----
    Director Coats. I've seen----
    Senator Blumenthal.--Kushner.
    Director Coats.--I've seen that leak.
    Senator Blumenthal. They discussed how to manipulate Jared 
Kushner through his business arrangements, his family's 
financial difficulties, his lack of policy experience. Can you 
assure us that you are taking effective action to protect our 
national security against that manipulation?
    Director Coats. We are doing everything we can to protect 
the United States citizens from harm from abroad, including 
what you have just described. Once again, we provide the 
intelligence that provides information to our policymakers to 
make decisions as to how to go forward.
    Senator Blumenthal. Jared Kushner no longer has access to 
top secret classified information, but he continues to have 
access to secret information, correct?
    Director Coats. He has a temporary security clearance, as 
do several others. General Kelly has taken the position that we 
need to shorten that list. It's in process right now. But, 
these decisions are made by the FBI [Federal Bureau of 
Investigation]--I mean, these clearances are cleared by the 
FBI, and----
    Senator Blumenthal. Isn't his continuing access to that 
information a threat to our national security?
    Director Coats. I don't believe it's a threat to our 
national security. No, I don't. Because--he now has, under 
General Kelly's correction, had a temporary access to some 
types of information, but not to highly classified information.
    Senator Blumenthal. Senator Grassley and I have written to 
both the White House, Don Magan, and to the Director of the 
FBI, Christopher Wray, asking for a full explanation of the 
continuing security clearance process, because we--I continue 
to believe, speaking only for myself, that it continues to be 
defective. I hope you will cooperate in that review.
    Director Coats. We certainly will cooperate, from an 
intelligence standpoint, for that review.
    Senator Blumenthal. Can you assure us that you will take 
action in the event that any foreign government seeks to 
manipulate a member of the White House staff?
    Director Coats. Well, once again, I want to just make clear 
that taking action is a policy decision. We provide the 
information, the truth to power, the truth to those who make 
those policy decisions. To the extent that the intelligence 
community can participate in those actions, that has to be 
formulated through policy.
    Senator Blumenthal. But, you will make recommendations.
    Director Coats. We're very much a part of all these 
discussions, yes.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    If we could gear this back to some worldwide threats that 
we're facing as a country. I know, in the recently released 
Nuclear Posture Review [NPR], it was stated that Russia 
mistakenly assesses that the threat of nuclear escalation or 
actual first use of nuclear weapons would serve to de-escalate 
a conflict on terms favorable to Russia. That's commonly 
referred to as an ``escalate to de-escalate'' strategy. And 
since the document's release, some--the Russian government, in 
particular--have disputed this assessment, and they deny that 
Russia has such a strategy.
    General, I would ask you, Do you agree with the NPR's 
assessment that the ``escalate to de-escalate'' strategy 
reflects Russian doctrine?
    Lieutenant General Ashley. Senator, I do. That has been 
part of their doctrine for some time.
    Senator Fischer. I understand that, since we are in an 
unclassified forum, we can't discuss in great detail how you 
arrived at that conclusion, but, in general, is it fair to say 
that this strategy is reflected in their military exercises, 
statements of senior leaders, and development of military 
capabilities?
    Lieutenant General Ashley. Let me kind of give an 
overarching--in terms of what they think about when they think 
about their nuclear triad. That is integral to their deterrence 
strategy, and it's the same kind of triad that we have. But, 
when you talk about nonstrategic nuclear weapons, it really 
is--it's ``escalate to de-escalate,'' and it's been couched in 
different terms--``escalate to dominate'' or ``escalate to have 
conflict termination.'' And the strategy there is that you 
create a pause--in this case, a strategic pause--where you're 
back into talks and discussions within the conflict. Where I 
would see them using this would be a situation where Moscow saw 
their national vital interest--actually, Russia proper was at 
risk.
    Senator Fischer. In the NPR, it does state in there that a 
limited first use or--limited first use could paralyze the 
United States and NATO, that the Russians do believe that that 
would happen, and that it would end a conflict on terms 
favorable to Russia. Do you agree with that statement in the 
NPR?
    Lieutenant General Ashley. Yes, ma'am. That would be the 
desired outcome.
    Senator Fischer. Okay, thank you.
    Gentlemen, both of your opening statements discuss the 
increasing nuclear capabilities of Russia as well as with 
China. Do you agree with the NPR's assessment that, since 2010, 
global threat conditions have worsened markedly, both in 
terms--in general terms and with specific respect to nuclear 
threats?
    Director Coats. I would agree.
    Senator Fischer. General?
    Lieutenant General Ashley. Yes, ma'am.
    Senator Fischer. Thank you.
    General, in your statement for the record, you assess that 
Kim Jong-un has, ``attempted to reinvigorate North Korea's 
conventional military.'' We've focused extensively on North 
Korea's nuclear weapons development, but can you please 
elaborate on North Korea and, have they invested in 
modernization of their conventional force, as well?
    Lieutenant General Ashley. Yes, ma'am. A lot of that is 
really focused on the old Soviet equipment that they have, in 
terms of modernization, better accuracy, better systems, 
integrated to the existing weapons that are part of that 
inventory. I think the big change that we've seen from his 
father to Kim Jong-un is the rigor of training. Prior, with his 
father, you did not have the level of discipline, you did not 
have the level of rigor that we would normally associate for 
what you do to get a force ready to go to war. Kim Jong-un has 
taken that readiness aspect very, very seriously. They do not 
have a capability that could, you know, reunite the Peninsula, 
but there is significant capability that's over the 38th 
parallel, in terms of the amount of damage that they could do 
with their conventional forces in a conflict.
    Senator Fischer. Do you believe the sanctions regime has 
impacted North Korea's efforts to modernize their conventional 
military?
    Lieutenant General Ashley. It is starting to have an 
impact.
    Senator Fischer. In a general sense or in specific areas 
where they are looking at that modernization?
    Lieutenant General Ashley. I would take the modernization 
into a classified session to talk to some of the specifics 
where we see that there is an impact.
    Senator Fischer. Okay. What element of North Korea's 
conventional force do you believe poses the greatest risk to, 
not just our forces, but South Korea, as well?
    Lieutenant General Ashley. It's just the sheer number of 
artillery pieces and ballistic missiles that could be fired in 
initial salvos into South Korea.
    Senator Fischer. I'm short on time, but there was--on the 
evening of February 7th, the United States forces repelled an 
attack in Syria. Do you believe that these Russian mercenary 
groups are acting under the direction of, or in coordination 
with, the Russian Government?
    Lieutenant General Ashley. I can't speak to whether or not 
that particular action was executed with the knowledge. 
Information I have right, at the unclassified level, is that we 
do not think the Russians directed that particular maneuver 
that you're referencing from that PMC.
    Senator Fischer. Okay. If I could follow up later with you 
on these----
    Lieutenant General Ashley. Yes, ma'am.
    Senator Fischer.--this line of question, I would like that.

    [Deleted.]

    Thank you.
    Senator Inhofe. Thank you.
    I want the members to be aware, we do have two votes coming 
up at 11:00 o'clock. It'll be the intention of Senator Reed and 
me to work through this. Senator Wicker will be voting early on 
the first vote, and then coming up to chair it while I go back 
for the second and third. I think we'll do this together.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Director Coats, you and others have testified that it is a 
fact that Russia is continuing its efforts to interfere with 
our elections. Admiral Rogers, last week, testified that he had 
no specific authority to counter these efforts. And both you 
and he pointed out that Homeland Security is the lead agency 
to--is the lead agency, I assume, to counter the Russian 
efforts to interfere with our elections. My understanding is 
that Department of Homeland Security is working with the State 
elections people to make sure that the elections infrastructure 
are not--will not be vulnerable to hacking by Russians. But, 
who's responsible to counter the use of social media by 
Russians to conduct what they call ``informational warfare''? 
Is this also Department of Homeland Security's responsibility?
    Director Coats. Well, as I said earlier, this is more of a 
whole-of-government effort here. DHS plays the primary role, 
but other agencies are involved. This is an ongoing process, in 
terms of how we put together a strategy in the policy as--to 
deal with this and to counter this.
    Senator Hirono. I'm not aware----
    Director Coats. Each agency is well aware--is well aware of 
the need--that is impacted, is well aware of the need to do 
this. But, as I did say, you know, one coherent strategy 
between the executive branch and the congressional branch has 
not been put in place yet.
    Senator Hirono. Well, that's the thing. So, I--look, our 
concern is, who's in charge here? Who is the lead entity to 
bring everybody together? Because you have Homeland Security, 
you have Cyber Command, you have FBI, you have a lot of 
entities, and somebody has to take the lead. And, you know, 
this is in the context of $120 million that the State 
Department was given specifically to deal with the Russian 
interference with our elections, and they have not spent a 
dime. So, should the State Department be the lead agency to 
come up with a whole-of-government approach to their--Russia's 
continuing interference? Noting also that the 2018 elections 
are right around the corner, why do we not have a whole-of-
government strategy already in place?
    Director Coats. Well, as I said, it is in process. The 
White House is actively engaged, the Office of Mr. Bossert and 
Rob Joyce. This is a high priority for them, so they're working 
through that, through the National Security Committee. And it 
is a topic that we understand has to be addressed, and we are 
addressing. We see this continuing influence by the Russians, 
and we want to be not only defensively ready, we're working 
with States and local election officials. So, I don't have a 
specific answer to your specific question, which is, which 
agency or which individual person has taken the lead at this 
point?
    Senator Hirono. Don't you think there should be a lead 
agency, maybe the State Department, which has $120 million to 
do the exact thing we're talking about?
    Director Coats. Well, I think that's a decision that has to 
be made at--by the President and the White House. And what is 
under--being undertaken as we go forward here probably will 
lead to that. We do have a Cyber Command, through the military, 
which you just confirmed the new----
    Senator Hirono. Yes.
    Director Coats.--incoming----
    Senator Hirono. I do have----
    Director Coats.--Director of that. So----
    Senator Hirono. I don't--I hate to interrupt you, but I'm 
running out of time. But, I think that the conclusion is that 
this is not a top priority for the President. You're doing your 
very best to be very statesmanlike about it.
    I have a question for you regarding the most recent reports 
that South Korean officials are saying that North Korea is 
willing to begin negotiating with the United States on 
denuclearization, and they're planning an April summit between 
the two leaders. What are your thoughts on North Korea's 
perceived willingness to negotiate their nuclear capabilities? 
I know, General Ashley, you have some doubts about this. What 
do you believe should be the U.S. role as these discussions 
continue? If you can start with your response.
    Director Coats. Sure. We--we'll know a lot more in a few 
days, as our envoys come back and give us--as well as the South 
Koreans come back--and give us the details of what was 
discussed. I happen to have a long history, here, in a previous 
life, of watching both Democrat and Republican administrations 
trying to reach agreement with North Korea on the nuclear 
question. All efforts have failed. We know that Kim Jong-un 
is--while he's unpredictable, he's also very calculating. We 
know that he probably--that he views possession of nuclear 
weapons as essential to his well-being as well as the well-
being of his nation. He has repeated that--stated that over and 
over. All efforts in the past have failed and has simply bought 
North Korea time to achieve what they want to achieve.
    I'm quite skeptical about all of this. As I said, both 
Democrat administrations, going all the way back to Clinton 
administration, have been frustrated by their efforts. That has 
ultimately led to just giving them time to further develop.
    So, we'll see. As I said, hope springs eternal. We ought to 
look at this. But, it's been very clear we have made--drawn a 
very clear line: North Korea has to agree to not possess 
nuclear capability. And, until that happens, we cannot have an 
agreement with them. That is our position. And so, we'll see 
what happens, here.
    Maybe this is a breakthrough. I seriously doubt it. But, 
like I said, hope springs eternal.
    Senator Hirono. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Director Coats, thank you for being here. We miss you in 
the Senate. We're glad you are where you are.
    And, General Ashley, when you mark down that list of 
skeptical versus optimistic, put me on your side, in terms of 
North Korea. I--marking it--get the tickmark.
    You know, I want to go back--I didn't plan on talking about 
it, but, when we have this discussion about an act of war, I'm 
pretty sure--I'm relatively new to the Senate, but I believe 
that's an article 1 power. And it would seem to me that, if we 
have people who have a deeply held belief that it is an act of 
war, then they should be talking about taking the steps that 
Congress takes, based on the information presented, to put 
their money where their mouth is, in terms of declaring war.
    I do have a question about Russia, though. It has to do 
with the nature of the threat and what we don't know about--you 
know, when we talk about conventional weapon systems, we talk 
about standoff, we have a better understanding of what we need 
to engage in that theater--let's say the cyber theater--do we--
when we talk about an act of war in cyberspace, do we have any 
earthly idea what the nature of the capabilities and the 
threats are of our adversaries to the point that you would have 
confidence to go into a fight and know it wouldn't be a fair 
right?
    Director Coats. Well, we're doing all the assessing that we 
can in that regard. As we--as General Ashley said, the efforts 
of our adversaries are in--more in development stage than ours 
are. But, we're well aware of the threat. And I think we have 
to start thinking about threats as we look up into space, as 
well as threats here on Earth, and it--use the same kind of 
principles that we use to assess what's happening here, because 
it--you know, space----
    Senator Tillis. Director----
    Director Coats.--warfare could be a major issue for us.
    Senator Tillis. When you have--in the past, you would view 
the actions of a hostile nation, it was easy to identify 
exactly what they did, and then you could determine how to 
respond to it. Isn't one of the challenges that you have--and I 
know some people have taken you to task even in this hearing--
is that we're really trying to sort through the fact patterns 
to know exactly who was involved and then exactly how to 
respond? Is that a fair way to characterize it?
    General Ashley?
    Lieutenant General Ashley. Let me take this from a Defense 
Department perspective. I think part of what you're alluding to 
is attribution. And so, when you get into things like cyber, 
attribution becomes somewhat more problematic. Your initial 
question was, do they have a pretty good capability? Yeah, they 
have a pretty good capability. And it is global. One of the 
things interesting about cyber is that it is not bounded. The 
previous question we had with regards to some of those other 
capabilities, you know, and you look at the character of war 
that's changing, and some of the technology, you literally have 
the capability to reach the globe with weapon systems. Cyber is 
a weapon system.
    In terms of looking at the context of the nature and the 
character of war, you know, we no longer have the Westphalia, 
and everybody lines up on the border, 1648, right, and we come 
across. The line of which you declare hostilities is extremely 
blurred. And if you were to ask Russia and China, do you think 
you're at some form of conflict with the U.S.?--I think, behind 
closed doors, their answer would be yes. It's hard to make that 
determination to definitively say, you know, what constitutes 
an act of war, when you're in the gray zone in a lot of the 
areas that you operate.
    Senator Tillis. In my remaining time, I want to ask you--as 
we move up to a markup on the NDAA [National Defense 
Authorization Act], and we're looking at resources that we 
need. Two--I'll just--I'll ask the question, and you all answer 
in the time provided.
    One, what more should we be looking at? Are there any 
things that you're seeing us considering that are particularly 
helpful, or not helpful? What more should we be thinking about?
    And the other one, General Ashley, it has to do with the 
work that we're doing with our allies, how you would gauge 
their--in the various areas in your written testimony, both of 
which were very good--how you would gauge the health of the 
relationship and our NATO partners, and what more do we need to 
do there? Or give them a scorecard.
    Lieutenant General Ashley. Let me go with the partners 
question first. The Secretary of Defense laid out a couple of 
key lines of effort. He said we've got to be more lethal, and 
he said we've got to be more efficient, in terms of how we--you 
know, the governance and effectiveness. But, one of his three 
key lines of effort was partners. He has an appreciation for: 
we cannot do this by ourselves, and our success has always been 
integral to leveraging partners. They're going to bring 
insights, they're going to bring capabilities, and they're 
going to bring capacity that we do not have.
    I think one of the things that we've got to take a hard 
look at is in terms of intelligence-sharing and how do we 
better integrate--you know, we've had this Five Eyes community 
for the longest time, but really the way we should look at some 
of these problems are discrete toward what that problem is. If 
you have a problem that's in South Africa or Northern Africa, 
then maybe it's not a Five Eyes solution, maybe there's seven 
nations that contribute to that, when we look at colonial 
relationships and which partners are there. So, I think the 
intel-sharing and opening the aperture is an area that we need 
to push the envelope on, but leveraging our partners is 
absolutely integral to our success.
    Director Coats. I'd like to just address the NATO 
situation. We see NATO as recovering--fall of the wall and 
Russia--USSR [Union of Soviet Socialist Republics] dissolves. 
What's the role for NATO? Thanks to Vladimir Putin, we've 
gotten a wake-up call. The Russian bear came out of the 
hibernation, and was hungry and started grabbing countries, 
like Crimea--places like Crimea and now the fighting in Ukraine 
and the issues in Georgia. NATO is now back in business. 
They've got a ways to go, but we're on the--the trend is right. 
It's disappointing that the most--the country that I was 
Ambassador to, the country most capable of providing strength 
and resources to NATO, Germany, is not doing--living up to 
its--punching up to its weight. And, with the election that 
just took place, this doesn't point to any additional move in 
the right direction.
    However, having said that, there are a number of nations, 
particularly border nations, that are upping their game on 
this. There are exercises that are taking place. My--I've got a 
grandson who's a airborne ranger, and he's in--been in these 
exercises over on the border nations of Europe and Russia. 
The--an intelligence division has been stood up. Been over to 
Brussels twice on that. It's providing a significant 
coordination in the integration of intelligence that NATO 
hadn't had before. So, they are upping their game, and they see 
the threat coming, and want to be prepared, and--so at least 
we're moving in the right direction relative to NATO, in my 
opinion.
    Senator Inhofe. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    Director Coats, with regard to cyber, I fear that the 
phrase ``whole-of-government approach'' has become a catchall 
for ``it's someone else's job.'' We hear this catchall phrase 
over and over again. Saying ``whole-of-government approach'' is 
not a substitute for action. And it's not a substitute for a 
real cyber doctrine, something that could achieve deterrence. 
When are we going to expect an actual cyber plan from this 
administration?
    Director Coats. I can't give you a specific date. I can 
only say that we will continue to provide as much information 
intelligence that we can gather to the policymakers so that 
they can make this decision.
    Senator Heinrich. So, you know, I'd love to hear somebody 
say, ``the buck stops here'' instead of ``whole-of-government 
approach.'' What have you personally done to either expedite 
this process or to at least create a sense of urgency in the 
White House?
    Director Coats. I have daily and weekly interactions with 
the people at the White House, and we discuss any number of 
issues. It is clearly an issue for the National Security Agency 
and for the NSC, at the White House, and for others. So, there 
are ongoing discussions in this part of the whole range of 
threats that we face. As I earlier have said, there has not 
been, yet, a formulation of a lead agency that would work with 
the Congress on legislative action and putting a policy in 
place relative to that. There are complicated issues here 
regarding----
    Senator Heinrich. Well, let me----
    Director Coats.--the retaliation and so forth----
    Senator Heinrich.--let me just suggest that we're----
    Director Coats.--that are being----
    Senator Heinrich.--we're running out of time.
    Last week, I asked Admiral Rogers if our response to 
Russian cyberattacks has been adequate enough to change their 
behavior. He said that we had failed to change their calculus, 
and that their behavior has not changed. Would you agree with 
his assessment?
    Director Coats. I would agree with that.
    Senator Heinrich. Do you believe it's possible to change 
someone's behavior, particularly someone like Vladimir Putin, 
without imposing some sort of cost on them for their actions?
    Director Coats. I believe that.
    Senator Heinrich. How should we impose those costs on 
Russia?
    Director Coats. Well, that's the question. The question is, 
how do you assess the retaliation and the impact and what it 
might lead to? I think that is the operative question that has 
to be addressed. I could----
    Senator Heinrich. How about sanctions?
    Director Coats.--couldn't agree with you more.
    Senator Heinrich. Would sanctions be an appropriate 
response? Because this body passed a law, nearly unanimously, 
that required that the President sanction individuals with 
financial----
    Director Coats. Yeah.
    Senator Heinrich.--ties to Russia's defense and 
intelligence sectors, or at least waive sanctions by certifying 
that Russia has reduced their cyberattacks against the United 
States. Both of you told me, a few weeks ago, that the 
intelligence community is still seeing activity in the runup to 
the 2018 elections. I think your phrase, Director Coats, was, 
``The United States is under attack.'' So, why on earth hasn't 
the administration found anyone to sanction?
    Director Coats. As you've probably seen, 13 individuals 
have been named. The Treasury Secretary Mnuchin has indicated 
that, very shortly, he will be bringing out a list of sanctions 
on those individuals that have been complicit in this.
    Senator Heinrich. You're talking about the 13 individuals 
who were indicted by the Special Counsel?
    Director Coats. Correct. This goes beyond that. This also 
goes to others at--I don't know what names are on the list. We 
have provided intelligence information to Department of 
Treasury for this determination, and I'm told it's coming soon.
    Senator Heinrich. So, you were asked, let me make sure I 
get this right, to provide analysis to support the Treasury 
Department's decision.
    Director Coats. I can't say that--well, I don't know that 
there was a direction on that. All I do know is, is that we 
have been engaged in providing intelligence on this subject 
continuously----
    Senator Heinrich. When Treasury Department----
    Director Coats.--to the various agencies----
    Senator Heinrich.--made their initial decision about their 
release of names, but they did not choose to sanction any 
individuals at that time, were you asked to provide analysis 
for them to be able to come up with that decision?
    Director Coats. I would have to go back and double check 
whether this was just part of our regular ongoing provision of 
information or whether there was a specific ask on this. I'd be 
happy to get back to you on that question.
    Senator Heinrich. Yeah. I would look forward to that.
    [The information referred to follows:]

    [Deleted.]

    Senator Heinrich. We've talked a lot about sanctions 
against Iran, a lot about sanctions against North Korea. It 
seems like there should be a focus on this.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your appearance 
today.
    The National Security Strategy says that we've returned to 
an era of great power competition, which I believe to be true. 
Threats of terrorism remain serious, but those threats become 
catastrophic primarily when they're supported by a nation-state 
in one way or another. There are two main great powers in the 
world. We've talked a lot about two of them already, Russia and 
China. But, I want to turn to a rogue nation that is perhaps 
the most urgent threat, North Korea, and follow up on some of 
the conversations we've had today.
    Director Coats, you said earlier that we're still 
ascertaining exactly what's happened on the Korean Peninsula in 
the last few hours between the South Korean delegation that 
went to Pyongyang, and what it means. Is it your understanding 
that any talks between North Korea, on the one hand, and South 
Korea and the United States, on the other hand, would be talks 
without any concessions made to North Korea?
    Director Coats. My current understanding is that no 
concessions were--that that topic was not----
    Senator Cotton. Is it due----
    Director Coats.--raised.
    Senator Cotton. Part of the problem we have with North 
Korea, and the reason we got to where we are, is that, in the 
past two or three decades, we've consistently granted 
concessions, just to get them to sit down and talk to us?
    Director Coats. That is correct.
    Senator Cotton. It's one thing to sit down and talk with an 
adversary. We did that with the Soviet Union throughout the 
Cold War. It's another thing to bribe that adversary to sit 
down and talk with us.
    Director Coats. Talk is cheap.
    Senator Cotton. So, we shouldn't play Charlie Brown to 
their Lucy once again on that football.
    Director Coats. There has been a football, and there have 
been a lot of misses.
    Senator Cotton. Thank you.
    Some people talk about the possibility of deterring North 
Korea the way we deterred the Soviet Union. That makes some 
assumption about the nature of the North Korean leader and the 
North Korean regime. I want to reference a report from The New 
York Times last week that cited the U.N. Panel of Experts on 
North Korea saying that North Korea is suspected of exporting 
large amounts of material to Syria that could be used to 
develop chemical weapons, and also missiles that could deliver 
those chemical weapons. Do you care to comment on those reports 
from last week?
    Director Coats. We know, in the past, that there has been a 
transfer, historically, between North Korea and Syria. Relative 
to what's currently going on, we'd have to discuss that in a 
classified session.
    Senator Cotton. Okay. Perhaps we will do that. But, that 
sounds like the kind of thing that North Korea would do, 
doesn't it, given their history?
    Director Coats. Given their history, it sounds like it.
    Senator Cotton. Yeah. That makes them somewhat different 
from the Soviet Union. The Soviet Union, of course, had a 
nuclear arsenal that could destroy the American way of life, 
but they rarely transferred that kind of weapons of mass 
destruction technology to rogue nations like Syria, correct?
    Director Coats. I'm not sure I have enough information to 
say yes or no on that, but that's----
    Senator Cotton. It's a very----
    Director Coats. We have----
    Senator Cotton.--a risk----
    Director Coats.--we have some history, that's for sure.
    Senator Cotton. It's very risky to transfer nuclear, 
chemical, or biological technology if you care for the 
preservation--the long-term preservation of your regime. But, 
given the economic and diplomatic situation that North Korea 
faces, I think that makes them somewhat different than the 
Soviet Union in the Cold War.
    General Ashley, let's turn to a brief comment you made, I 
think, in exchange with Senator Fischer, about the indirect-
fire systems that North Korea has on or near the DMZ 
[demilitarized zone]. Sometimes the North Korean leadership 
says they could turn Seoul into--is it a ``lake of fire''? Is 
that what they call it?
    Lieutenant General Ashley. I'm not sure of the phrase, but 
it would be a significant amount of casualties.
    Senator Cotton. Something like that, yeah.
    You also mentioned that a lot of North Korea's military 
weapons are Soviet-era systems. Do we know what percentage of 
those mortar rockets and artillery systems in North Korea's 
arsenal are Soviet-era systems, which means, by definition, now 
at this point at least 27 years old?
    Lieutenant General Ashley. Yeah, I would say the majority 
of them are. We can give you exact breakdown.
    Senator Cotton. Okay.
    [The information referred to follows:]

    [Deleted.]

    Senator Cotton. Of that percentage, do we know how many--
what percentage of those are very well-maintained by the North 
Korean military?
    Lieutenant General Ashley. My understanding is, the level 
of maintenance is pretty good on the systems. Now, there's 
going to be a degree of atrophy over time, but our expectation 
is, those systems will work.
    Senator Cotton. What about the availability of the parts 
and the ammunition rounds that all of those systems would need?
    Lieutenant General Ashley. That becomes more problematic, 
in terms of amount of ammunition and supply parts for 
replacements.
    Senator Cotton. Because those are not widely available----
    Lieutenant General Ashley. Correct.
    Senator Cotton.--on the international arms market?
    Lieutenant General Ashley. Correct.
    Senator Cotton. Then, finally, those systems don't fire 
themselves, they need well-trained crews to fire them. Do we 
have an assessment of the training level of the North Korean 
army's--at the crew level, and how they can operate all those 
systems?
    Lieutenant General Ashley. We watched their winter--their 
training exercises. They've shown a level of discipline and 
expertise. I don't know that I can take that all the way down 
to the crew level, but I will go back to the comment I made 
earlier, that Kim Jong-un, far different from his father in the 
level of rigor that they've applied to their training regime to 
make sure their crews are ready.
    Senator Cotton. Yeah. When you pile up all of those 
estimates on top of each other, though, there is some question 
about the overall effectiveness of North Korea's indirect-fire 
systems, you know, the--probably a little bit less than what 
the North Korean leader suggested it might be, but still a 
grave threat to South Korea and to Americans troops on the 
Peninsula. Is that right?
    Lieutenant General Ashley. Still a great threat.
    Senator Cotton. Finally, what's the quality of North Korean 
air defenses against United States aircraft?
    [The information referred to follows:]

    [Deleted.]

    Lieutenant General Ashley. Let me take that into a closed 
session. That's a little more complicated answer.
    Senator Cotton. Okay. Thank you.
    Appreciate it, gentlemen.
    Senator Inhofe. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thanks, to our two witnesses.
    I want to just, first, begin by applauding your prepared 
testimonies. I know you have to summarize very briefly at the 
top of this hearing, but both of the prepared sets of testimony 
are very strong.
    In particular, I noticed both of you focused upon 
protracted conflicts, environmental challenges, et cetera, 
leading to migration and displacement, and the security 
challenges caused by displacement.
    General Ashley, you indicate, ``As of October 2017, 
protracted conflicts and ethnosectarian violence have increased 
global displacement at the highest levels on record, according 
to the United Nations.'' I'm going to come back to that in a 
second.
    Director Coats, you have a strong section on environment 
and climate change, at page 16 and 17 of your written 
testimonies, that are important. I've been disappointed with 
some of the environmental agencies in the administration for 
not acknowledging that, scrubbing Web sites, not talking about 
it. But, you're very straightforward about the challenges that 
are presented in our security environment in this section. I'd 
encourage my colleagues to take a look.
    Here's a worry that I have. Would you agree with me that--
the title of hearing is Worldwide Threats--would you agree with 
me that one of the best ways we deal with worldwide threats is 
stronger alliances, more allies?
    Director Coats. I agree with that.
    Senator Kaine. General?
    Lieutenant General Ashley. Senator, I agree.
    Senator Kaine. Here is a concern that I have about the 
administration. There seems to be a number of areas in which we 
are isolating ourselves from allies. It could be the failure to 
nominate ambassadors. Senator Reed talked about that. It could 
be proposals to reduce dramatically the budget of the State 
Department and USAID [United States Agency for International 
Development]. That's ongoing. It could be the pulling out of 
the United States of international accords, whether it's 
pulling out of the Paris Accord, stepping back from the U.N. 
Compact on Global Migration, threatening to step out of an Iran 
deal, threatening to pull out of a Korean trade deal, 
threatening to pull out of NAFTA [North American Free Trade 
Agreement], starting tariffs, which could suggest trade wars 
with allies, even tweets about allies and adversaries and even 
our own diplomats. I worry very, very much about an--sort of, 
an isolationist attitude if one of our immune-system strengths 
in dealing with worldwide threats is strengthening alliances. 
I'm very nervous about this right now.
    Let me ask you about two things that concern me:
    First, since you both focused upon the displacement and 
refugee challenges--and, Director Coats, you actually, in your 
own testimony, near the end, talked about this as a significant 
phenomenon, whether it's war, violence, natural disasters, 
weather events, droughts, corruption, causing migrations of 
population. We've seen the challenges that Syrian migrants have 
compounded in Europe, for example. In December, the U.S. 
announced that it, alone among nations of the world, was going 
to pull out of the U.N. Compact on Global Migration, which was 
a voluntary agreement by nations in the U.N., a unanimous 
agreement in September of 2016, to sit down and start to talk 
about new best practices for dealing with migrants and 
refugees. Completely voluntary, no incursion into the sovereign 
ability of any nation to make their own immigration decisions. 
But, the Trump administration announced, in early December, 
that the U.S. was pulling out of the discussions, citing 
sovereignty as a reason, which was a non sequitur, since the 
entire idea around the Global Compact was that no nation would 
give up their sovereign ability to do anything, but that we 
would have a dialogue about how to deal with this significant 
security threat that you each identify in your written and, 
Director Coats, in your oral testimony. Why is it a good idea 
for the United States to pull out of a global discussion about 
the way to deal with the human displacement problem that you 
each identify in your testimony?
    Director Coats. Oh, Senator, I am not familiar with that 
particular decision, why that decision was made. In the larger 
sense, relative to what you are talking about it's easy to look 
at the way we've conventionally done things, but it's also easy 
to see that they haven't always worked. I think there is--we've 
seen potential upsides to some decisions that have been made 
that have caused nations that we have either been adversaries 
or allies to change their position. But, look at NATO. The 
criticism that came to the President for criticizing NATO has 
resulted in the fact that many nations now have come in line 
and agreed, and said, ``Look, yeah, you're right, we haven't 
held to our commitments, we haven't treated NATO as something 
that is necessary.'' There are a number of nations that now 
have changed their position on that----
    Senator Kaine. And just----
    Director Coats.--relative to trade, other benefits that 
have come from--in decisions that have been positive. So, just 
going back to the conventional ``let's always do it the way 
we've always done it'' really hasn't worked very well.
    Senator Kaine. I just want to comment this, and I'll have 
one question for the record.
    I get that. Questioning existing institutions, could they 
be better? That's one thing. This was an initiative that was 
just being started. There was no history, there was no bad 
action. It was a decision by every nation in the world to meet, 
beginning in Mexico in December of 2017, to talk about the 
human displacement problem that you each testified to as 
achieving real gravitas and significance. And the nation--and 
the world needs to figure out how to deal with it. The U.S. 
decided they did not even want to be at the table for the first 
discussion. It wasn't a critique of what was being done. It was 
a unilateral decision that the U.S. would be a nonparticipant. 
I can't see how that would benefit either the United States or 
the world, given your own testimony about the seriousness of 
the problem.
    Thank you, Mr. Chair.
    Senator Inhofe. Senator Graham.
    Senator Graham. Thank you both. Dan, thank you for serving 
in the role you're serving in, your great counsel to the 
President. General, thank you for your service.
    Let's see if I can sort of go over some highlights here.
    North Korea. Is it still the policy of the United States to 
deny the North Korean regime the ability to hit America with a 
nuclear-tipped ICBM [Intercontinental Ballistic Missile]?
    Director Coats. Absolutely.
    Senator Graham. Is that true, General? Do you agree with 
that?
    Lieutenant General Ashley. Yes, sir.
    Senator Graham. All right. Denial, then, is different than 
containment. We've rejected the idea of giving them the 
capability and trying to contain it. Is that true, Mr.--Senator 
Coats?
    Director Coats. Yes.
    Senator Graham. The reason is, if they get a bunch of 
capability, they are likely to sell it or share it. We've seen 
a history of that. Is that accurate?
    Director Coats. Yes, we have.
    Senator Graham. Okay. Let's move to--and to follow that 
concept through: as a last resort, military action is on the 
table.
    Director Coats. It is on the table.
    Senator Graham. Okay.
    Iran. When it comes to the Iranian involvement in Syria 
aligning with Russia, do you believe we have a sufficient 
strategy to contain the Russian-Iranian threat in Syria?
    Director Coats. We certainly are working on one. And it is 
of constant discussion, in terms of how we see that problem. 
We--it clearly is a major issue that needs to be addressed.
    Senator Graham. Okay. Well, I want to congratulate you on 
the fight against ISIS. I think you've done a great job in the 
results on the ground, but the sooner you could come up with a 
counter-Iran strategy in Syria and other places, the better.
    I just got back from a trip to Israel. I was informed by 
the IDF [Israel Defense Forces] that, basically, there are 
thousands of missiles and rockets in southern Lebanon pointed 
at Israel. Do you have any reason to doubt that in the hands of 
Hezbollah?
    Director Coats. No reason to doubt that. In response to 
your previous question, there is a strategy in place relative 
to the Iranian engagements throughout the--this very difficult 
part of the world, and what Iran has been doing.
    Senator Graham. Maybe in a different setting, we can----
    Director Coats. I'd be happy----
    Senator Graham.--talk about that.
    Director Coats.--I'd be happy to do that.
    Senator Graham. Because I'll just be honest with you, 
Director Coats, I got back in--from Israel and Jordan. It's not 
bearing fruit.
    Do you agree with the idea that the United Nations Interim 
Force Lebanon has failed when it comes to protecting Israel's 
interests in southern Lebanon?
    Director Coats. I would agree with that.
    Senator Graham. You agree with that, General Ashley?
    Lieutenant General Ashley. Sir, I don't think that's my 
place to make that assessment.
    Senator Graham. Okay, fair enough.
    So, Israel told us, our delegation, they need more 
ammunition and backing from the United States if they have to 
go into southern Lebanon, because the Hezbollah rockets and 
missiles are integrated within apartment complexes, schools, 
and hospitals. They have made civilian targets in play, 
Hezbollah has. Does that make sense to you? Do you--can you 
confirm that?
    Director Coats. Given the sources of--obviously, we would 
like to talk about that in detail in a closed session.
    Senator Graham. Right.
    Director Coats. But, yes, publicly, that has been----
    Senator Graham. Yeah.
    Director Coats.--been pretty clear.
    Senator Graham. Well, I just want to let the Committee 
know, it's just a matter of time before Israel has to act. 
They're actually making precision-guided weapons inside of 
southern Lebanon, Hezbollah is, and they couldn't do it without 
Iran.
    The Iranian nuclear agreement, is it still the policy of 
the President that we need a better deal in Iran?
    Director Coats. Yes, it is.
    Senator Graham. One of the concerns of the current deal is 
the sunset clause.
    Director Coats. That is correct.
    Senator Graham. Under the sunset clause, the mere passage 
of time, Iran can enrich and reprocess without limitation. Is 
that correct?
    Director Coats. I believe that's correct.
    Senator Graham. General Ashley--and I think the policy of 
the United States is that anytime they get within near 
breakout, we should reimpose sanctions. Do you understand that 
to be the President's position?
    Lieutenant General Ashley. I understand at the point they 
can start to re---enrich beyond 3.67, that it would take about 
a year to put a weapon together.
    Senator Graham. Well, I totally support the President's 
belief that we need a better deal, replacing the sunset clause 
with something better.
    Do you agree with me, Director Coats, that if--the Arabs 
are going to just assume Iran gets a nuclear weapon over time 
unless something changes, under the current agreement?
    Director Coats. I think that's a reasonable assumption.
    Senator Graham. Yeah, that's what they've told me, is that 
they're going to respond in kind.
    As to Russia's interference in our election, I have 
legislation, with Senator Gillibrand, that sets up a 9/11-style 
commission to look forward, where people from the private 
sector can come forward to give us recommendations about how to 
harden our infrastructure regarding the 2018 election. Can I 
send that to you? And would you give me some feedback if you 
could support it?
    Director Coats. I would be happy to do that.
    [The information referred to follows:]

    [Deleted.]

    Senator Graham. General?
    Lieutenant General Ashley. Sir.
    Senator Graham. How likely is it the 2018 election's going 
to be compromised by Russia?
    Director Coats. We have not seen evidence of a robust 
effort yet on the part of Russia. But, we know their malign 
activities continue to exist.
    Senator Graham. If the past is any indication of the 
future, it's highly likely. Would you agree with that?
    Director Coats. It's highly likely that they will be doing 
something. We just don't know how much and when/where.
    Senator Graham. Do you agree with that, General?
    Lieutenant General Ashley. Senator, I agree.
    Senator Graham. Okay. We have a policy of mutual assured 
destruction. If we're attacked by nuclear weapons, we will wipe 
out the country who attacked us. Do we have anything like that 
in the cyber arena?
    Director Coats. Not to my knowledge.
    Senator Graham. Do you think we'd be well-served to let 
countries know, ``You attack America through cyberspace at your 
own peril''?
    Director Coats. Well, I think that message has already been 
delivered. But, if it hasn't, it needs to be.
    Senator Graham. Thank you both for the job you're doing for 
our country.
    Lieutenant General Ashley. Thank you, sir.
    Senator Inhofe. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    And our witnesses today, thank you for your testimony and 
your service.
    General Ashley, what is your definition of ``political 
warfare''? When you heard--hear that term, how would you define 
it?
    Lieutenant General Ashley. I think of it more in the 
information domain, that it is really--I had used the word, you 
know, kind of the ``whole-of-government.'' But, it is kind of 
``informatation,'' which is kind of how they use some of the 
phrases, that it is targeted toward the populace, writ large. 
If you look at it in the context--well, I'll use--since we 
talked about Russia, they have a thing that's in their 
doctrine, and it's been in their doctrine since back in the 
1960s, called ``reflexive control.'' And what they do is, they 
use a level of influence to try to take you down a path to make 
a decision, you think it is your own. That is--that's nothing 
new. But, as we look at it in the context of what's evolved 
over the last couple of years, it's a ubiquitive communication, 
social media and other means, by which you can deliver those 
messages. But, that has been integral to their strategy for 
probably really since about back in the 1960s.
    Senator Peters. Right. So, basically, many of the things 
that we've been talking about here could very easily be defined 
as ``political warfare.'' Would you agree that we are engaged 
with an adversary that is using political warfare against the 
United States?
    Lieutenant General Ashley. I don't know that there's--I 
don't have a doctrinal term, but I can say that it's, you know, 
warfare, in the context of warfare. I think it's----
    Senator Peters. At least in the context----
    General Ashley.--it's information----
    Senator Peters.--of the term----
    General Ashley.--confrontation, in terms of how the 
Russians look at it.
    Senator Peters. At least in the context of the term 
``political warfare,'' it is consistent with that.
    Senator Inhofe. Senator Peters, could I interrupt for just 
a moment?
    Senator Wicker, presiding.
    Thank you.
    Senator Peters. Thank you, Mr. Chair.
    Is that correct, that it is in the context of that?
    Lieutenant General Ashley. Well, I'd have to look, you 
know, for the exact definition of what ``political warfare'' 
constitutes, which I can't tell you what that is.
    Senator Peters. That's fine, General.
    I just--was recently reading a report here from the 
Brookings Institution by authors Polyakova and Boyer, and I 
found an ``emerging threats'' section in the report, 
particularly interesting. I want to read it and get your 
comments to it about emerging threats.
    They write in the report, ``The future of political warfare 
is in the digital domain. The influence tools used by Moscow 
against the West are still fairly basic. They rely on 
exploiting human gullibility, vulnerabilities in the social 
media ecosystem, and lack of awareness among the public, the 
media, and policymakers. In the 3-to-5-year term, however, 
these tools will become more advanced and difficult to detect. 
In particular, technological advancements in artificial 
intelligence in cyber capabilities will open opportunities for 
malicious actors to undermine democracies more covertly and 
effectively than what we have seen so far. In addition, 
increasingly sophisticated cyber tools tested primarily by 
Russia and eastern Europe have already affected Western 
systems, and an attack on Western critical infrastructure seems 
inevitable.'' That's end of quote.
    General, what do you make of that statement?
    Lieutenant General Ashley. I just want to say there's 
validity to the statement. Attribution could become more 
difficult. But, at the same time, what we've seen transpire in 
Europe--you know, had the--the level of influence that the 
Russians tried in a number of elections, whether it's in the 
Chechnya, whether it's France, Germany, other nations, Norway--
because of the heavyhanded nature in which they did that, it 
really kind of illuminated what they were doing. People became 
more suspect. But, the more that we talk about this, it's in 
the public domain, the more people may question the information 
that they see that's out there, so they may question whether or 
not this is, in fact, true or it's being used to influence them 
toward a particular outcome.
    Senator Peters. The point they also make in the report--
although you said that it's easy to see some of it because of 
its heavyhandedness--is that, with the very rapid advances in 
machine learning and artificial intelligence, it's going to 
become extremely difficult to see exactly what's happening. 
Would you agree with that?
    Lieutenant General Ashley. I think there's an AI 
[Artificial Intelligence] application--my now--the NATO 
particular piece of that is because it came in the public 
domain and we talked about it. Then people started looking for 
it, and they started to see it.
    Senator Peters. My final question is: A lot of this 
misinformation and the tools that are being used and will be 
exploited in an increasing fashion in the future are able--or 
use big data--basically, the weaponization of big data. How do 
you approach that concept, and what are you doing in regards to 
that? First off, do you believe that is a significant threat, 
the weaponization of big data?
    Lieutenant General Ashley. I think it is a threat.
    Senator Peters. Part of that threat is to engage our social 
media platforms--Facebook, Twitter, other types of platforms 
that are engaged in that. Is the intelligence community--to 
both of you--is the intelligence community engaged in 
conversations with these platforms, understanding that we need 
to probably cooperate if we're going to be able to thwart this 
threat?
    General, you first. Is that necessary? Or Director Coats. 
I'm sorry.
    Lieutenant General Ashley. I was going to let the Director 
take that.
    Let me take the context of big data, in terms of our 
understanding. As we start seeing what's changing now really in 
the character of war, you have speed of decision. There's all 
these disparate things that are happening globally, all the 
information that's moving around. For us, from the intelligence 
standpoint, on a military side, it's being able to see the 
indications and warning, being able to see the faint signals of 
conflict that may be coming your way. To take all that 
disaggregated information and aggregate it in a way where you 
can start to see trends, indications, and warning, and it gives 
the analyst time to start to think about what he or she is 
seeing--for us, that's kind of really one of the big 
applications for big data, in terms of sensing the environment. 
It is a critical capability that we're focused on.
    Senator Peters. Great.
    I'm out of time. Thank you.
    Senator Wicker [presiding]. Thank you.
    Senator McCaskill.
    Senator McCaskill. Thank you so much. And thank you for the 
indulgence of my colleagues. I haven't voted yet, so they're 
letting me do this out of turn so I can quickly try to make a 
couple of points.
    You know, Director, I liked your analogy about the bear 
coming out of hibernation. I think it's a really accurate 
description of what's going on with Putin and Russia. As you 
described it, the bear is out of hibernation, grabbing 
countries and, I would add to that, attacking democracies. 
Would you agree?
    Director Coats. I would agree.
    Senator McCaskill. Okay. But, we're not hunting bears, the 
United States. That is by and large because the Commander in 
Chief doesn't appear to be interested in hunting bears, which 
is very frustrating for all of us. Whether it comes to 
sanctions or whether it comes to direct action, Russia is not 
feeling the might of the United States of America. Admiral 
Rogers was very clear here last week that he is not being 
commanded to use the tools he has to go after Russia. As 
Senator Graham indicated, those bears are now colluding with 
Iran to threaten directly our best ally in a very dangerous 
neighborhood, and that's Israel. I wanted to get that on the 
record.
    I also just wanted to ask you quickly about the security of 
our supply chain for our weapon systems. This is something that 
really concerns me. And this I would direct to both of you. We 
now know that the requirements of China and Russia to review 
proprietary information of United States companies in return 
for opening their markets to United States companies could 
cause real problems down the line. Do either of you support 
that we should require United States companies to tell us if 
Russia or China is requiring them to open up their proprietary 
source code as a condition of doing commerce with those two 
countries?
    Director Coats. I don't know if that decision has been 
made. It has some implications that, you know, would bear some 
legal examination of the issue. But, it is--you raised the 
right question--I mean, it is a concern. Looking at the supply 
chains--and down through--but, whether we're in a position 
right now legally or with the authorities to enforce that 
against various companies, I don't have the answer for that.
    I don't know, General, if you, on the military supply 
chain, have taken----
    Lieutenant General Ashley. Yeah. So, ma'am----
    Director Coats.--actions in that regard.
    General Ashley.--I don't know whether we put those laws in 
place, but, from a supply-chain risk management, the point you 
bring up is critical, in that we have to be really much more 
cognizant and less naive about where our technology's coming 
from, especially on the acquisition side. When you look at the 
components that are brought in--so, for example, if I have a 
contract with you for something, and you have a subcontract 
with Senator Wicker, who has a subcontract with Senator Warren, 
Senator Warren, in this case, may represent Kapersky Labs, and 
that is a problem, but it was not written in the contract that 
you had to be able to preclude that from happening. We're 
getting smarter about supply-chain risk management and doing 
more on the counterintelligence forum to be able to uncover 
those relationships.
    Senator McCaskill. I would really like recommendations from 
both of you of what we can do in the NDAA to give you the legal 
tools necessary to require U.S. companies to let us know when 
they're being required to reveal source code and important 
proprietary software that--in order to do business with people 
that are not always our friends. Secondly, what we can do to 
require more transparencies with subcontractors for our--the 
protection of our weapon system supply chains. If both of you 
could make us any recommendations, I think that this Committee, 
on a bipartisan basis, would be interested in giving you 
whatever tools are necessary for that really desperately needed 
protections.
    [The information referred to follows:]

    [Deleted.]

    Senator McCaskill. Thank you both.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator McCaskill.
    Director Coats, Senator McCaskill made a statement, you 
agreed with it, then she made another statement, and I suspect 
maybe you didn't agree with that one, but you weren't asked 
whether you agreed. Let me see if we can expand on that.
    Last week, United States Government approved selling 210 
Javelin antitank missiles and 37 launchers to Ukraine. The 
Javelins represent the type of defensive lethal aid that 
Ukraine has been called--has been calling for from the United 
States since Russia's illegal annexation of Crimea. So, in that 
sense, we're fighting the bear in that regard. Is that correct, 
Director Coats?
    Director Coats. Yeah. Probably General Ashley has more 
knowledge about the impact of Javelin missiles and weapons that 
we sent to Ukraine, but yes, that is a pushback.
    Senator Wicker. General Ashley, in that sense, we're 
engaging the bear.
    Lieutenant General Ashley. Senator, so you're correct. I 
think what we're showing also is a good-faith measure toward 
our partner in Ukraine, as well.
    Senator Wicker. I think one of the most strategic--one of 
the most strategic acts in the next few months or in the next 
few years is that Russia demonstratively lose in Ukraine. Do 
you agree with that, that that's a very strategic objective?
    Lieutenant General Ashley. I think that is a strategic 
objective, yes.
    Senator Wicker. Also, our National Defense Strategy now 
states that, for long-term security competitions, our 
competition with China and Russia are foremost and the foremost 
priority for the Department of Defense. Is that correct?
    Lieutenant General Ashley. Sir, that is correct.
    Senator Wicker. And so, in that case, I won't ask you, I 
would just observe, we are engaging the bear, and doing so in 
our very strategy.
    General Ashley, you were not quite as optimistic as Senator 
Inhofe when this hearing first began, when he asked you about 
North Korea. I expect that might be because you've seen this 
movie before. Is that correct?
    Lieutenant General Ashley. Senator, that's correct. We've 
watched this----
    Senator Wicker. Would you care to expound on why exactly 
you don't share much optimism about the announcement yesterday 
from Kim Jong-un?
    Lieutenant General Ashley. Yes, sir. Staying at the 
unclassified level, everything that I've seen, everything 
that's reinforced my opinion, my assessment, albeit there is a 
great deal of opaqueness to the decisionmaking of Kim Jong-un, 
I have seen nothing to take me down a path to think that he's 
about ready to make a hard right turn. But, that possibility is 
there. But, I have seen nothing to tell me that there's 
sincerity in the talks that are going to--about ready to kick 
off.
    Senator Wicker. Should we dismiss it out of hand, or would 
your advice to the President of the United States be to follow 
up, with caution?
    Lieutenant General Ashley. I think you follow up, with 
caution, you engage.
    Senator Wicker. Okay. Now, let me ask one other thing. 
There was a RAND study that came out in December, and it--we've 
had classified briefings that followed up on that. It was a 
public study, and, basically, it was very startling what they 
said. They said that, under plausible scenarios, the United 
States could actually lose the next war. They listed several 
reasons for this, one being that, when we have to fight a war, 
we have to fight it so far away from home, but also they said 
that our adversaries are catching up with us in technology. Did 
you have a chance to look at that RAND study?
    Lieutenant General Ashley. Senator, I have not, but I will.
    Senator Wicker. Well--okay.
    Director Coats, have you looked at that study?
    Director Coats. I have not looked at that study, but we've 
seen a great deal of intelligence relative to the technological 
capabilities now available to nations which didn't have those 
capabilities before. There is competition, and there is a race. 
The world is changing. Conventional warfare probably changed 
when we prevailed in Desert Storm. You don't line--no country's 
going to line up tanks or infantry against us, because--given 
our capabilities that were demonstrated there. And so, we've 
seen a lot of asymmetric types of threats, and the use of 
technology to achieve those threats.
    So, it's a different kind of warfare that we're engaged in. 
I think, you know, we are fully aware of that. Thanks to the 
Congress, the budget has been increased significantly to make 
up for some stuff that was pretty static for--in the past 
administration.
    Senator Wicker. That's true, yes. I think we're going to 
follow up, on the 23rd of this month, with an omnibus.
    Let me get back to you. Understanding, General Ashley, that 
you haven't--not read the report, it was stunning, I think, to 
many Americans, that a report could say we could conceivably, 
under plausible conditions, lose the next war. What do you say 
to someone who would make that flat statement?
    Lieutenant General Ashley. I would have to look at the 
context of the assessment. Is it one particular war? Is it 
multiple wars? Is it holding/deterring? I do agree with 
everything that Director Coats says, in terms of closing the 
gaps in capabilities. Our opponents are going to come at us in 
a very asymmetric way. The technology gap is closing. The fact 
that we have global commitments, it's hard to posture ourself 
everywhere on the globe, so you're always going to have that 
time distance, where you're going to have to move, where you 
may be out of position when a conflict starts.
    Senator Wicker. Okay. Well, General, thank you very much.
    Well, I'm going to ask you to take this as a question for 
the record. We'll insert it at this point in the record.
    [The information referred to follows:]

    [Deleted.]

    Senator Wicker. Would you look at that, at the unclassified 
RAND report--came out about the 4th of January--or not--
actually, I think it came out in December--look at that and 
give us a brief response----
    Lieutenant General Ashley. Yes, sir.
    Senator Wicker.--to the allegations--top-line allegations 
made.
    [The information referred to follows:]

    [Deleted.]

    Senator Wicker. Senator King.
    Senator King. Thank you, Mr. Chairman.
    First, Director Coats, I want to compliment you and the 
members of your--the community that you represent on the report 
that you have supplied to us. It is succinct and clear, and 
troubling, in some cases, which is what good intelligence will 
always be. Particularly on page 16 is an extraordinary 
statement about the effect of climate change on national 
security. The impacts of the long-term trends toward a warming 
climate--more air pollution, biodiversity loss, and water 
scarcity--are likely to fuel economic and social discontent and 
possibly upheaval through 2018. Goes on to talk about the risk 
of humanitarian disasters, conflict, water and food shortage, 
population migration, labor shortfalls, price shocks, power 
outages, and a possibility of abrupt climate change. It--the 
notes indicate a--the current extinction rate is 100 to 1,000 
times the natural extinction rate.
    I just want to point that out. This is clearly, as your 
report indicates, a serious issue of national security, is it 
not?
    Director Coats. It is an issue, but it always has been an 
issue. What happens to the environment--floods, hurricanes, et 
cetera--we're seeing some intensity of that lately.
    Senator King. Well, this just isn't--this isn't talking 
about general environmental conditions. This is talk--it's, 
``The past 115 years''--I'm reading from your report--``have 
been the warmest period in the history of modern civilization. 
The past few years have been the warmest years on record.'' 
Then it goes on to state--I would just hope that you would have 
the people that prepared this brief the Secretary of the EPA 
[Environmental Protection Agency], because I think this 
information is important. It's important to national security. 
We often talk about the risk of climate change in the context 
of environmentalism, but, according to your analysis, it is 
also an issue that affects national security. It will increase 
migration patterns, conflict, famine, and the like, which is 
often how wars start.
    Another part of the report, on page 7, talks about Iran and 
the Iran nuclear agreement. There's an interesting phrase that 
says, ``Iran's implementation of the JCPOA [Joint Comprehensive 
Plan of Action] has extended the amount of time Iran would need 
to produce enough fissile material for a nuclear weapon from a 
few months to about one year, provided Iran continues to adhere 
to the deal's major provisions.'' Is it the judgment of the 
intelligence community that Iran has, thus far, adhered to the 
deal's major provisions?
    Director Coats. Yes. It has been--the judgment is there's 
been no material breach of the agreement.
    Senator King. ``And the JCPOA''--I'm again reading from 
your report--``has also enhanced the transparency of Iran's 
nuclear activities, mainly by fostering improved access to 
those nuclear facilities for the IAEA [International Atomic 
Energy Agency] and the authorities under the additional 
protocol.'' If the Iran agreement were abrogated, we would lose 
that visibility into the Iran nuclear enterprise, is that not 
correct?
    Director Coats. Well, we've built a number of capacities 
relative to that, even since the agreement. So, I--to say 
``lose that'' would--I don't think would be accurate. I----
    Senator King. Diminish?
    Director Coats. It potentially could diminish.
    Senator King. I think you can do better than that. It would 
diminish, would it not? The IAEA would certainly not have the 
access that they currently have.
    Director Coats. No, they may not. On the other hand, we 
have provided other means, and we've significantly upped our 
game in terms of our verification procedures.
    Senator King. In your assessment on page 18, you talk about 
China. Again, interesting language. It talks about China's 
security interests with regard to the South China Sea, the East 
China Sea, and Taiwan. It uses the language--I'm sorry--it uses 
language of national security in those regards. Sovereignty 
claims, the East China Sea, South China Sea, and Taiwan. But, 
then it goes on to talk about its efforts aimed at fulfilling 
the Belt and Road Initiative to expand China's economic reach 
and political influence.
    My question is, What is the intelligence community's 
assessment of what China wants? Is China want--or do they--are 
they moving toward military aggression and enlargement of their 
territory, or are they looking more toward political and 
economic influence in the region?
    Director Coats. It appears to be the latter. While China is 
modernizing its military, is increasing its spending, most of 
it appears to be done for a deterrence purpose rather than 
aggressive purpose. They have--clearly have a strategy of using 
credit and loans to countries around the world, particularly in 
geostrategic places, and then combining it with some military 
capacity--South China Seas, their new base in Djibouti. We see 
that. China is seeking, I think, to become a world power with 
great influence on a global basis, and they're using a number 
of techniques that are far more than just the typical military 
land grab that we see more likely with Russia rather than 
China.
    Senator King. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator King.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, gentlemen, good to see you again. Thanks for your 
wonderful service.
    Wanted to just comment. I saw my colleague, Senator Kaine, 
making some comments on some of his concerns, particularly as 
it relates to alliances and how we're focusing on those, or 
not. I think it's a good point. I agree with him on it. But, 
one thing he actually didn't mention was the unprecedented 
delay of the confirmation of many of the people that the 
President has put forward, in terms of the national security/
foreign policy area. You don't have to comment on that, but I 
certainly wish, if we're talking about challenges, that we can 
agree to expeditiously move some of these nominees, as opposed 
to delay, delay, delay.
    I wanted to ask about China with regard to--there's been a 
lot of press recently about some of these--I don't know if you 
would call it soft power, but Confucius Institutes on campuses 
throughout the United States and how, kind of, the dollar 
diplomacy in some of our top universities is really having--
starting to have an impact, and people are starting to--
wondering what these Confucius Institutes are really up to.
    First of all, Director Coats, do you think that China would 
allow for, kind of, the equivalent? Let's say we had the United 
States Government trying to put forward James Madison 
Institutes or Alexander Hamilton Institutes about freedom, 
liberty, free speech, the rule of law, on Chinese campuses? Do 
you think China would allow that?
    Director Coats. We certainly don't have any assessment that 
I could give you. Given China's control over what is done in 
China through its institutions, both public and private, it 
would likely be a harder hurdle to cross than it would be per--
--
    Senator Sullivan. Probably very unlikely, wouldn't it?
    Director Coats. Probably very unlikely.
    Senator Sullivan. What do you think these--well, have you 
looked at what these Confucius Institutes on our--on some of 
our top campuses are trying to achieve, and what their goals 
are? Are they actually spying on Chinese students in 
university? Do we know what's going on? There's--like I said, 
there's been a number of articles, just in the last few months, 
on these.
    Director Coats. Yeah, what--there has been significant 
interest in this. In fact, we have some studies going on, and 
some investigations going on relative to what China is doing 
and what their real intent is, and how much of it is linked to 
the Chinese government policies rather than just students 
wanting to come to get a good education here. So, we take that 
very seriously. In assessing where China is and where China is 
going, this is part of the effort.
    Senator Sullivan. Well, it would be good to be able to see 
those reports and brief the Congress on it, because I think 
there's a lot of us on both sides of the aisle that are 
interested in that.
    Let me--I know you've had a lot of questions on North 
Korea. Let me try to be more specific. I'd like to get a sense 
of your confidence in the intelligence estimates with regard to 
the critical issue of North Korea's capability for long-range 
nuclear missiles that can hit all of the continental United 
States or just the western States or--I have a particular 
interest in the noncontiguous states, Alaska and Hawaii. What 
are your estimates right now of Kim Jong-un's ability to range 
all three of those geographic areas in our country?
    Director Coats. Well, we know China has tested the ability 
to--with ICBMs and--intercontinental ballistic missiles. They 
have the power to reach all parts of the United States. We know 
they've tested the high-yield nuclear device. We assess they 
will continue to do these testings. Specifics of what you are 
asking, I think is better moved to a closed session rather than 
here.
    Senator Sullivan. The President has put forward what I 
would consider a red line, in terms of U.S. policy. I think 
you, in one of your hearings recently, agreed with that, that 
he's saying, ``We're not going to allow the North Koreans to 
have the capability to have an intercontinental ballistic 
nuclear missile that can hit the United States.'' That would 
include my State of Alaska, which is a little closer. Has North 
Korea crossed that red line yet?
    Director Coats. I don't believe they've crossed that red 
line yet, but I think that policy is still in place.
    Senator Sullivan. Do you think they're going to cross that 
red line within the year, 2018?
    Director Coats. I--you know, we do everything we can to 
assess what Kim Jong-un is thinking and what the regime might 
do, but it's been unpredictable, as you know, so that's just a 
matter--the message has been loud and clear.
    Senator Sullivan. Is it likely that they'll cross that red 
line this year?
    Director Coats. I cannot assess that they would--well, when 
you describe--define ``red line,'' are you talking about----
    Senator Sullivan. I'm talking about----
    Director Coats.--their capabilities or their----
    Senator Sullivan.--the capability to fire an 
intercontinental ballistic nuclear missile that can range any 
State in America, including----
    Director Coats. Well, we know they're----
    Senator Sullivan.--Alaska and Hawaii.
    Director Coats.--we know they're pursuing their capability. 
Whether they exercise that capability, or not, that would cross 
that red line is--we don't know.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Sullivan.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman.
    The Committee on Foreign Investment in the United States, 
CFIUS, reviews acquisitions by foreign companies to ensure that 
they don't threaten our national security. The Director of 
National Intelligence investigates the national security risks 
proposed by proposed foreign investment transactions. Director 
Coats, your threat assessment observed that China and others 
are using legal ways to acquire American early-stage 
technologies, and that these foreign acquisitions erode our 
competitive advantage. So, I'd like to explore that just a 
little bit.
    General Ashley, as head of the Defense Intelligence Agency, 
you look at foreign acquisitions of U.S. technology through the 
lens of national security risks to the supply chain for our 
government and our military.
    I want to pick up on this where Senator McCaskill left off. 
Given that China and others will continue efforts to acquire 
our technologies, how well are we identifying emerging 
technologies that are critical to maintaining our military 
advantage over our adversaries, both in the near future and 
beyond?
    Lieutenant General Ashley. What I can speak to are the 
technologies that are coming out and what we do to go through 
the supply chain, risk management, counterintelligence, how we 
examine those that are tied into the Department----
    Senator Warren. I--if I can, General, let me just narrow 
the question up. The question I'm asking is, Are we doing a 
good job of identifying all of the critical technologies that 
are subject to the Chinese? That's the first part. You've got 
to know that it's within your lens to take a look at.
    Lieutenant General Ashley. Yeah. I can't speak to the 
totality of everything that's out there that would be examined. 
But, when you talk about how they acquire, some of it's legal, 
some of it is illegal, and some of it is--they're starting to 
build their own technology now.
    Senator Warren. Okay, that's--I understand that. I'm a 
little concerned, though, about our ability to monitor this in 
advance. I'm very concerned.
    Let me ask this, General Ashley. Do you believe that 
government investment in basic scientific research is critical 
to developing those technologies that maintain our military 
advantage?
    Lieutenant General Ashley. I do.
    Senator Warren. Good. You know, I think it's important for 
us to be proactive in identifying emerging technologies that 
foreign adversaries will try to poach, and to continue 
investing in the research that strengthens our economy and our 
national security. So, that's the point I'd like to underline 
today.
    I also have another question I want to ask. I want to pick 
up where Senator Heinrich left off. One of the tools we have to 
hold Russia accountable is sanctions. Congress overwhelmingly 
passed a law last year requiring sanctions on anyone that 
engages in cyberattacks on behalf of the Russians. The Trump 
administration has not imposed these required sanctions, even 
though Russia will continue trying to interfere in our 
elections. Last week, I asked the NSA Director what message it 
sends to Vladimir Putin when the Trump administration does not 
implement mandatory sanctions to counter Russian cyberattacks. 
Admiral Rogers said--and I will quote him--``I believe that 
President Putin has clearly come to the conclusion that there's 
little price to pay here, and that, therefore, I can continue 
this activity.'' And he concluded by saying, ``Clearly, what 
we've done hasn't been enough.''
    Director Coats, do you agree with Admiral Rogers?
    Director Coats. I do believe what we've done has not done 
enough. Sanctions are under consideration. Secretary of 
Treasury has indicated, I think as early as next week, he may 
be listing some of those sanctions. Clearly, we have not 
successfully countered, in an offensive way rather than 
defensive way, how to deal with some of the cyberattacks----
    Senator Warren. Okay. So----
    Director Coats.--that are coming.
    Senator Warren.--so you agree that we have not done enough. 
How about Admiral Rogers' statement when he says, ``I believe 
that President Putin has clearly come to the conclusion that 
there's little price to pay here,'' meaning for Russian 
cyberattacks, ``and that he can, therefore, continue this 
activity''? Do you agree with the Admiral on that?
    Director Coats. I think they have seen some successes. I 
don't know to what extent they believe that the success they 
wanted to achieve. I do support what has been discussed 
relative to the transparency and informing the American people. 
And----
    Senator Warren. So, is that----
    Director Coats.--our job, as intelligence community, is to 
inform the American people of this so that they take more--
exercise better judgment as--in terms of what is real news and 
fake news.
    Senator Warren. Wait. You think our job is only to inform 
the American people? I think our job is to----
    Director Coats. I didn't say it was the only----
    Senator Warren.--take some countermeasures.
    Director Coats. I did not say that's our only job. I said 
that's one of the things that we do----
    Senator Warren. It's one of the things----
    Director Coats.--as an intelligence community.
    Senator Warren.--we did.
    Director Coats. That's correct.
    Senator Warren. Did you agree with Admiral Rogers' 
statement, or not? I didn't hear whether there was a yes or no 
in there.
    Director Coats. I said I think--I'd agree that there was 
more that we can do, and it's under consideration.
    Senator Warren. I--you know, I don't care if you're a 
Democrat or a Republican, as Americans we should all be 
appalled that Vladimir Putin thinks he gets to play a role in 
the outcome of our elections.
    Director Coats. I couldn't agree more.
    Senator Warren. Good. We need to prevent that from ever 
happening again.
    Director Coats. And that's why part----
    Senator Warren. But----
    Director Coats.--transparency is really part of the 
effort----
    Senator Warren. Well, I'm----
    Director Coats.--of engaging.
    Senator Warren.--all for transparency, but, if the Trump 
administration doesn't implement sanctions, as required by 
Congress, then we are not using every tool we can to 
effectively deter Russia from undermining our democracy----
    Director Coats. As I've said, Secretary Mnuchin's going to 
be announcing those, I believe, within a week.
    Senator Warren. Eventually.
    Thank you, Mr. Chairman.
    Senator Inhofe [presiding]. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service, thank you for being 
here today.
    Director Coats, in your written testimony, you said, ``Iran 
remains the most prominent state sponsor of terrorism, 
providing financial aid, advanced weapons and tactics, and 
direction to militant and terrorist groups across the Middle 
East, and cultivating a network of operatives across the globe 
as a contingency to enable potential terrorist attacks.'' As 
you know, as part of the Obama nuclear deal, billions of 
dollars flowed into Iran, including $1.7 billion in unmarked 
cash delivered in pallets in the dark of night.
    In your judgment, have--has some of those billions of 
dollars--has some of that money been used to finance terrorist 
operations?
    Director Coats. Likely.
    Senator Cruz. What do--in your judgment, is the greatest 
terrorist threat posed by Iran?
    Director Coats. Iran has a lot of malign activities going 
on right now, but seems to me that the greatest current threat 
is the support for Hezbollah and Hezbollah's positioning itself 
against Israel. That has turned into a hotspot, and Iran has 
made this possible for Hezbollah to move into Syrian territory 
very closed to Israel and arm themselves to the point where it 
could turn into a major conflict.
    Senator Cruz. Well, and indeed, in recent weeks, we saw, 
for the first time ever, an Iranian drone crossing into Israeli 
airspace, piloted by Iranians. What do you see as the 
consequences that Iran now feels strong enough, belligerent 
enough to be directly leading attacks on Israel with Iranian 
weapons, by Iranians?
    Director Coats. Well, it could have very serious 
conflicts--conflict result from all of that. We know Israel 
will not be able to tolerate that kind of threat directly on 
their border. And so, it's--I think it's a situation of 
significant concern.
    Senator Cruz. Is Iran continuing its research and 
development and testing of ICBM technology?
    Director Coats. They continue to develop and test their 
missiles. They claim it's not for that purpose. But, there 
appears to be violations of U.N. Security Resolutions relative 
to what they're doing. That is one of the malign activities 
that we're very concerned about.
    Senator Cruz. The missiles they're testing, they're not 
merely short-range missiles that might strike Israel, but they 
also include ICBMs that could reach the United States of 
America.
    Director Coats. I'd like General Ashley to----
    Lieutenant General Ashley. Yeah, so what----
    Director Coats.--discuss it.
    General Ashley.--so, what they have in their inventory are 
short-range ballistic and medium-range ballistic missiles. They 
do have a space-launch vehicle, the Simorgh, which they've 
tested a couple of times. The reliability is not there. Today 
if you were to ask me, Does Iran have an ICBM capability?--they 
do not. Is that aspirational? Yes. Could they take that space-
launch vehicle and start working that toward an ICBM 
capability? They could, but that is many years out.
    Senator Cruz. Do we see indications of North Korea sharing 
their ICBM research and development with Iran?
    Lieutenant General Ashley. From an Iranian standpoint in 
their ballistic missile program, really the seed corn of their 
ballistic missile program started back in the 1980s, in the 
Iran-Iraq War. It was the Scud technology. Really where Iran 
wants to be right now is self-sufficient, so they want to have 
the ability not to depend on North Korea, like they did back in 
the 1980s, so they are self-sufficient in terms of how they're 
developing their program.
    Senator Cruz. Let's shift for a minute to North Korea. In 
January 2018, Kim Jong-un publicly called for, ``contact travel 
and cooperation between North and South Korea.'' And then 
yesterday, Kim Jong-un hosted a ten-member delegation of South 
Korean officials in Pyongyang. According to President Moon's 
national security advisor, who led the delegation, North Korea 
signaled a, ``clear intent to pursue denuclearization, and is 
willing to hold talks with the U.S.''
    Director Coats, do we have any reason to believe that Kim 
Jong-un would be willing to give up nuclear weapons?
    Director Coats. He has repeatedly stated that he would not 
give that up. He sees that as existential to his regime's 
survival and to his own survival. I've--we have seen nothing to 
indicate otherwise, that he would be willing to give up those 
weapons.
    Senator Cruz. What do you make of these statements to the 
contrary? Is this simply propaganda? Is this--what's your 
assessment of it?
    Director Coats. Well, I think it's too early to make a 
clear assessment. We need to hear from our interlocutors, who 
will be coming here, as well as South Koreans, to discuss what 
they have discussed. I spoke earlier about my history, here, of 
watching this movie a couple of times before with both 
Republican and Democrat administrations, the frustration of 
getting into talks with North Korea and not succeeding, buying 
them time to do what they want to do.
    I have very, very low confidence in what their intent 
might--to be--if their intent is for denuclearizing. We have 
seen no evidence to that point--to that decision at this point.
    Senator Cruz. General, do you have a view on this question?
    Lieutenant General Ashley. I agree with the Director. I 
mean, everything we've seen leads us down a path that really 
the preservation of the regime from any kind of external threat 
is central to that weapons program. And the lessons he's taken 
away from the likes of Gaddafi that have given up programs puts 
him at risk. It was surprising to see that in the paper this 
morning, and we'll see where the talks go.
    Senator Cruz. Thank you.
    Senator Inhofe. Thank you, Senator Cruz.
    Let me make a comment about that, because--I'm glad you 
brought that up, Senator Cruz. We talked about this earlier. 
And General Ashley and I had a disagreement about this. Let me 
tell you why I feel a little differently than both of you.
    I, too, have been here while you've been here, Dan, and 
we've listened to this, and we've seen this movie before, and 
all that. But, you've got to keep in mind that Kim Jong-un just 
came off of eight years with someone in, I say, a policy of 
appeasement from the Obama administration. Then all of a 
sudden, when the response came on pressing the button, and he 
responded in a very, very straightforward way--he, being our 
President--then all of a sudden, the phone call went down to 
South Korea, ``Yeah, we want to participate with you in the 
Winter Olympics.'' I was watching this, because I was there at 
the time--not at the Winter Olympics, but I was in the South 
China Sea. And I thought, you know, that happening, and then, 
of course, what happened last night is something that is kind 
of unprecedented in coming forth and saying, under some 
conditions, he would follow the denuclearization.
    I've--I'm a little more--or more optimistic than your 
``hope springs eternal,'' Dan, but I do think, and I want to 
think, that this aggressive behavior of our President is going 
to have a positive effect on him.
    Director Coats. I think we would all like to think that. 
And I hope that that's the case. I just think we should go into 
this eyes wide open, and look at the history of what has 
happened before, before we get too excited about this.
    Senator Inhofe. Yeah, well--and I agree with that. I agree 
with that.
    Any further comments, Senator Reed?
    All right. We're going to go ahead, before someone else 
comes in, and release this crowd.
    Thank you.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Ben Sasse (R-NE)
                            cyber war policy
    1. Senator Sasse. Director Coats, you said that the U.S. does not 
have a clear policy or strategy for cyber war. How do the 17 agencies 
in the Intelligence Community make recommendations to policy makers if 
there is no strategy or policy to follow?
    Director Coats. [Deleted.]
                            cyber deterrence
    2. Senator Sasse. Director Coats and LTG Ashley, is our failure to 
deter Russian and Chinese cyber-attacks one of intelligence, will, or 
technical ability?
    Director Coats. [Deleted.]
    Lieutenant General Ashley. [Deleted.]
                               __________
            Questions Submitted by Senator Tim Scott (R-SC)
                      russian nuclear capabilities
    3. Senator Scott. LTG Ashley, the Nuclear Posture Review recently 
released by the Department of Defense stated ``Russia is elevating the 
role of nuclear weapons, expanding and modernizing its nuclear forces, 
violating arms control treaties, and engaging in aggressive behavior.'' 
Then late last week, Russian president Vladimir Putin personally 
announced Russia's development of several new weapons, including a 
``nuclear powered and nuclear armed cruise missile.'' I understand some 
of what Mr. Putin announced had already been in development, while 
other systems are far more outlandish and unlikely to be feasible.

    What is your public assessment of the weapons systems announced by 
Mr. Putin?
    Lieutenant General Ashley. Russia has a number of developmental 
programs intended to improve the capabilities of its Strategic Rocket 
Forces against U.S. missile defenses. These systems are technically 
feasible, and Putin's highlighting them to the Duma indicates Russia 
will probably devote the resources to complete their development. 
Several of these systems may already have undergone some testing. DIA 
can provide more information in a classified forum.

    <bullet>  Russian President Putin revealed a nuclear-powered and 
nuclear-armed cruise missile in his address. He described the missile 
as having ``practically unlimited range'' allowing it to approach to 
the United States via unconventional routes not protected by 
traditional missile defenses. He also claimed it ``was successfully 
launched at the central test range of the Russian Federation at the end 
of 2017.'' During the speech, a video depicted the missile leaving 
Russia at very low altitude in a mountainous terrain, transiting the 
Atlantic Ocean while avoiding a number of missile defense radars from 
the Arctic Circle to the southernmost tip of South America, and 
traveling northwards in the Pacific Ocean uninhibited. This is the 
first known public revelation of this system.

    <bullet>  Putin discussed a nuclear-powered and nuclear-armed 
unmanned underwater vehicle (UUV). He indicated it was a long-range 
system capable of carrying a nuclear warhead. Russia first revealed a 
system like this, known as ``Status-6,'' in a disclosure to the Russian 
press in 2015. According to the 2015 disclosure the Status-6 is a 
``robotic minisubmarine'' capable of 100 knots with a range of 5,400 
nautical miles. The 2015 disclosure also indicated it is intended to 
``destroy important economic installations of the enemy in coastal 
areas and cause guaranteed, devastating damage to the country's 
territory by creating wide areas of radioactive contamination, 
rendering them unusable for military, economic, or other activity for a 
long time.'' A video played during the speech depicted the UUV 
attacking an aircraft carrier.

    <bullet>  Putin also revealed ``a heavy intercontinental missile'' 
called Sarmat. He claimed it would be ``equipped with a broad range of 
powerful nuclear warheads, including hypersonic'' and would have the 
ability to ``attack targets both via the North and South poles.'' Putin 
claimed the Defense Ministry is ``in the active phase of testing'' this 
system. A video played during the speech depicted a missile emerging 
from a silo, followed by a simulated ballistic trajectory flying over 
the South Pole toward the United States.

    <bullet>  Putin publicized a ``high-precision hypersonic aircraft 
missile system'' known as Kinzhal, which he claimed is ``capable of 
delivering nuclear and conventional warheads in a range of over 2,000 
kilometers and 10 times the speed of sound.'' Putin indicated that 
successful tests of the system have been completed, and that the system 
is able to ``maneuver at all phases of its flight trajectory''.

    <bullet>  Putin discussed the Avangard gliding wing unit, capable 
of speeds ``in excess of Mach 20'' with the ability to perform 
intensive lateral and vertical maneuvers. A video played during the 
speech depicted the system launching atop a silo-based missile and 
maneuvering around air-defense locations.

    4. Senator Scott. Director Coats, do you believe Mr. Putin's 
announcement makes the world a more dangerous place for Americans?
    Director Coats. [Deleted.]
                   russia's low-yield nuclear weapons
    5. Senator Scott. LTG Ashley, last week General Scaparrotti 
described to me a Russian strategy of ``escalate to dominate,'' where 
Russia could seek to make permanent any territorial seizure by 
threatening to use low-yield nuclear weapons to defend those gains. 
This strategy would seek to deter NATO or the U.S. from acting to 
reverse those gains. This would appear to be a dramatic decrease in the 
threshold for using nuclear weapons, and incredibly destabilizing.

    What can you publicly tell this Committee about Russia's 
development of a new generation of nuclear weapons, including these 
low-yield devices?
    Lieutenant General Ashley. Public statements by Russian scientists 
and officials since the early 1990s indicate that low-yield devices 
have been part of Russia's nuclear stockpile. Very-low-yield nuclear 
weapons reportedly could be used to head off a major conflict and avoid 
full-scale nuclear war. Vladimir Putin in a 2013 interview discussed 
their destabilizing effects including how low-yield nuclear weapons 
could lower the threshold for conducting a nuclear strike in a 
conflict.

    <bullet>  Russian media cited experts suggesting the Avangard 
hypersonic winged glider unit will be equipped with a low-yield warhead 
but maintain higher effectiveness with improved accuracy.

    <bullet>  In a 2007 interview with a Russian news agency, Colonel-
General Vladimir Verkhovtsev, chief of the Ministry of Defense 12th 
Main Directorate addressed Russia's NSNW strategy. He indicated that 
``for Russia, tactical nuclear weapons are a deterrent factor against 
aggressive pressures against it.''

    6. Senator Scott. Director Coats, do you believe Russia's actions 
with its nuclear arsenal signal the start of a new nuclear arms race?
    Director Coats. [Deleted.]
                 russian activities in the middle east
    7. Senator Scott. Director Coats, as the situation in the Middle 
East grows increasingly complex, I am concerned about Russia's role in 
the region. Ties between Russia and Turkey, a member of NATO, appear to 
be growing and solidifying. Russian mercenaries are fighting alongside 
Syrian troops, while Russian aircraft support them in the skies. Syria 
and its president, Bashar Assad, are Russia's only remaining ally in 
the Arab world. It is clear to me that Putin and Russia are investing a 
great deal in Syria and the Assad regime's survival, including the 
blood of Russian citizens. The Washington Post reported on February 
22nd that the Russian Foreign Ministry acknowledged ``several dozen'' 
Russians were killed when they attacked a position held by the US and 
its allies.

    Senator Scott. How far will Russia go to defend the Assad regime 
and ensure its survival?
    Director Coats. [Deleted.]

    8. Senator Scott. Director Coats, should we be concerned about 
Russia implementing its ``escalate to dominate'' strategy in Syria and 
threatening the use of low-yield nuclear weapons to protect its 
interests there?
    Director Coats. [Deleted.]

    9. Senator Scott. LTG Ashley, if Russia does pursue its ``escalate 
to dominate'' strategy in the Middle East, how you think Israel will 
respond?
    Lieutenant General Ashley. [Deleted.]
                               __________
           Questions Submitted by Senator Richard Blumenthal
              white house clearances and foreign influence
    10. Senator Blumenthal. Director Coats, it was recently reported 
that foreign officials in at least four countries discussed how to 
influence Jared Kushner through his business arrangements, financial 
difficulties, and lack of foreign policy experience. Kushner's access 
to highly sensitive, classified information should have been not just 
downgraded, but eliminated long ago. Did you provide advice to Chief of 
Staff John Kelly regarding his newly-issued policy on interim 
clearances?
    Director Coats. Under Executive Order 12968, where official 
functions must be performed, temporary eligibility for access to 
classified information may be granted. While the DNI has oversight 
responsibilities of personnel security programs, agency heads are 
responsible for establishing and maintaining an effective program to 
ensure that access to classified information by personnel is clearly 
consistent with the interest of national security.

    11. Senator Blumenthal. Director Coats, do you agree that there is 
no reasonable justification for a yearlong policy that allowed people 
who may have very harmful secrets in their own backgrounds to have 
access to our nation's secrets?
    Director Coats. Background Investigation (BI) or adjudication 
timeframes can vary depending upon many factors, so there is no 
categorical ``yes'' or ``no'' response that can be provided for this 
question. Agency heads are responsible to ensure that access to 
classified information by personnel is clearly consistent with the 
interest of national security. Part of this responsibility includes 
making the decision to grant an interim clearance until a final 
clearance determination has been rendered. I believe it is imperative 
to take every step necessary to resolve the current security clearance 
backlog to largely obviate the need for interim clearances.

    12. Senator Blumenthal. Director Coats, do you agree that having 
individuals who are not properly cleared involved in White House 
decision making processes can pose a threat to national security?
    Director Coats. It is important that all steps be taken to fully 
clear any individual who will have access to classified information. 
From time to time, an Agency head can grant temporary access to 
classified information to an individual consistent with the interests 
of national security. When that happens, the individual is fully 
briefed on the responsibility and obligation to protect classified 
information.

    13. Senator Blumenthal. Director Coats, are you aware of attempts 
by foreign governments to leverage the business interests of the Trump 
Administration to influence policy decisions? Have you discussed with 
your colleagues concerns about risks of business interests being used 
as leverage with advisors to the President?
    Director Coats. [Deleted.]

    14. Senator Blumenthal. Director Coats, you stated in your 
testimony, ``US allies' and partners' uncertainty about the willingness 
and capability of the United States to maintain its international 
commitments may drive them to consider reorienting their policies...'' 
Can you please describe more what you mean by this statement? What 
commitments are you most concerned about?
    Director Coats. [Deleted.]
                                 russia
    15. Senator Blumenthal. Director Coats, in January 2017, your 
predecessor James Clapper released the declassified report entitled, 
``Assessing Russian Activities and Intentions in Recent US Elections.'' 
Over a year has passed since this report was first published and the 
threat has only increased. The report noted, ``Moscow will apply 
lessons learned from its Putin-ordered campaign aimed at the US 
presidential election to future influence efforts worldwide, including 
against US allies and their election processes.'' Will you commit to 
issuing an updated report to provide an accurate and updated threat 
assessment that can inform our government's ability to address 
vulnerabilities in our election system so that we do not further erode 
public faith in our democracy?
    Director Coats. [Deleted.]

    16. Senator Blumenthal. Director Coats, you stated in your 
testimony, ``We assess that the Russian intelligence services will 
continue their efforts to disseminate false information via Russian 
state-controlled media and covert online personas about US activities 
to encourage anti-US political views.'' Would you agree with me that 
our response to Russia has been inadequate?
    Director Coats. [Deleted.]

    17. Senator Blumenthal. Director Coats, you noted in your 
testimony: ``Foreign elections are critical inflection points that 
offer opportunities for Russia to advance its interests both overtly 
and covertly. The 2018 US mid-term elections are a potential target for 
Russian influence operations. At a minimum, we expect Russia to 
continue using propaganda, social media, false-flag personas, 
sympathetic spokespeople, and other means of influence to try to 
exacerbate social and political fissures in the United States.'' What 
changes in Russian activity have you seen in the last year? Would you 
assess that our lack of action has failed to deter the Russians, 
meaning they have not been forced to change their course of action?
    Director Coats. [Deleted.]
                              cyberattacks
    18. Senator Blumenthal. Director Coats, last June, Russia's 
military launched the NotPetya ransomware cyberattacks against Ukraine, 
but it was not until last month that the United States and U.K. 
attributed the attack. Yet this delay in attribution is nothing new, as 
the United States only attributed the May 2017 WannaCry cyberattack to 
North Korea in December 2017. Attribution is an important step, but 
must come far sooner and be followed by swift action. Why are the 
sources of these attacks not identified to the public sooner? What are 
you doing to connect the dots at a more rapid pace?
    Director Coats. [Deleted.]

    19. Senator Blumenthal. Director Coats, your testimony noted, 
``Russia, China, Iran, and North Korea will pose the greatest cyber 
threats to the United States during the next year. These states are 
using cyber operations as a low-cost tool of statecraft, and we assess 
that they will work to use cyber operations to achieve strategic 
objectives unless they face clear repercussions for their cyber 
operations.'' It sounds like you would agree with me that our actions 
thus far have not made them pay a steep enough price to realize that 
they have more to lose than gain with their behavior?
    Director Coats. [Deleted.]
                               __________
             Questions Submitted by Senator Martin Heinrich
             russian ballistic missile defense capabilities
    20. Senator Heinrich. LTG Ashley, last week Vladimir Putin boasted 
about his nuclear arsenal saying that it was ``invincible,'' claiming 
it can overcome our missile defenses. I want to turn that proposition 
on its head. How would you assess the effectiveness and reliability of 
Russia's ballistic missile defense?
    Lieutenant General Ashley. [Deleted.]

    21. Senator Heinrich. LTG Ashley, would you say Russia's ballistic 
missile defenses are 100 percent effective?
    Lieutenant General Ashley. [Deleted.]

    22. Senator Heinrich. LTG Ashley, would you assess that Russian 
ballistic missile defenses make them ``invincible'' against our nuclear 
delivery systems?
    Lieutenant General Ashley. [Deleted.]

                                 <all>
</pre></body></html>
